<html>
<title> - TELECOMMUNICATIONS IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 108-119]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-119
 
                   TELECOMMUNICATIONS IN INDIAN COUNTRY
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

OVERSIGHT HEARING ON THE STATUS OF TELECOMMUNICATIONS IN INDIAN COUNTRY

                               __________

                              MAY 22, 2003
                             WASHINGTON, DC







                        U.S. GOVERNMENT PRINTING OFFICE
87-495                        wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Dejordy, Gene, vice president, Regulatory Affairs, Western 
      Wireless Corporation.......................................    44
    Edelman, Marcia Warren, president, Native Networking Policy 
      Center.....................................................    14
    Fast-Horse, Valerie, cochair, Telecommunications and Utility 
      Committee, Affiliated Tribes of Northwest Indians, 
      Portland, OR, and director, Management Information Systems, 
      Coeur D'Alene Tribe of Idaho...............................    38
    Fohrenkam, Robin, chairman and president, Gila River 
      Telecommunications, Inc., Chandler, AZ.....................    18
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Johnson, Hon. Tim, U.S. Senator from South Dakota............    43
    Legg, Hilda Gay, administrator, Rural Utilities Service, 
      Department of Agriculture..................................     5
    Levy, Kelly Klegar, associate administrator, Office of Policy 
      Analysis and Development, National Telecommunications and 
      Information, Department of Commerce........................     7
    McDowell, Nora, chairperson, Fort Mojave Indian Tribe........    20
    Monette, Gerald ``Carty'', president, Turtle Mountain 
      Community College..........................................    30
    Narcia, Richard P., Governor, Gila River Indian Community....    18
    Shaddox, Roanne Robinson, senior advisor/External Relations, 
      Privacy Council............................................    47
    Snowden, K. Dane, chief, Consumer and Government Affairs 
      Bureau, Federal Communications Commission..................     2
    Standifer, Jr., Ben H., chief information officer, Tohono 
      O'odham Nation--executive branch...........................    55
    Strand, Mike, chief executive officer and general counsel, 
      Montana Independent Telecommunications Systems.............    51
    Turner, Denis, executive director, Southern California Tribal 
      Chairmen's Association, Tribal Digital Village.............    27
    Twist, Kade L., president, Kade L. Twist Consulting..........    10
    Whiting-Hildebrand, Cora, Oglala Sioux tribal council member.    42
    Yawakie, Madonna Peltier, president, Turtle Island 
      Communications, Inc........................................    24

                                Appendix

Prepared statements:
    Dejordy, Gene (with attachments).............................   158
    Edelman, Marcia Warren.......................................   104
    Fast-Horse, Valerie..........................................   142
    Legg, Hilda Gay..............................................    80
    Levy, Kelly Klegar (with attachments)........................    85
    McDowell, Nora...............................................   118
    Mescalero Apache Telecommunications Inc......................   185
    Monette, Gerald ``Carty''....................................   132
    Murphy, Charles W., chairman, Standing Rock Sioux Tribe......   122
    Narcia, Richard P............................................   109
    Shaddox, Roanne Robinson.....................................   173
    Snowden, K. Dane (with attachment)...........................    64
    Standifer, Jr., Ben H........................................   177
    Strand, Mike.................................................    61
    Turner, Denis................................................   126
    Twist, Kade L................................................    94
    Whiting-Hildebrand, Cora.....................................   152
Additional material submitted for the record:
    Grosz, Albert, CEO/general manager, West River 
      Telecommunications Cooperative, Hazen, ND, letter to 
      Senator Conrad.............................................    35


                  TELECOMMUNICATIONS IN INDIAN COUNTRY

                              ----------                              


                         THURSDAY, MAY 22, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 485, Russell Senate Office Building, Hon. Daniel K. Inouye 
(vice chairman of the committee) presiding.
    Present: Senators Inouye, Conrad, and Johnson.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. Good morning. This morning, the Committee 
on Indian Affairs meets to receive testimony on the status of 
telecommunications in Indian country. Last year, this committee 
held a joint hearing with the Subcommittee on Communications of 
the Commerce Committee on some of the issues related to 
telecommunications serving Native America. Today, we have 
structured a more comprehensive hearing. I think it is clear 
that whether it is characterized as a ``gap'' or a ``digital 
divide'' or some other term, Indian country lags far behind the 
rest of America in some of the most basic services that most 
Americans take for granted.
    Thirty-two percent of all Indian homes nationwide lack 
basic telephone service. In some areas of the country, like the 
State of Arizona, 50 percent of tribal homes have no access to 
telephone services. A study conducted by the Economic 
Development Administration in 1999 informs us that at that 
time, only 9 percent of Indian households had computers and 
only 8 percent had access to the Internet. As always, Indian 
country has been resourceful in trying to bridge the gap in 
telecommunications capacity, and some tribal governments, after 
assessing their communities' needs, have elected to start up 
their own telephone companies to serve reservation communities 
and both the Indian and non-Indian residents of those 
communities.
    There are new approaches being explored to connecting 
Indian country to bridge the absence of sophisticated 
communications infrastructure, because often the costs 
associated with putting in land lines in remote rural areas are 
so prohibitive that land-based communications simply are not an 
economically viable solution. Then there is the interesting 
fact that Federal agencies that have a physical presence in 
tribal communities, such as the Bureau of Indian Affairs and 
the Indian Health Service, have their own telecommunications 
infrastructure on tribal lands, but because of various 
regulatory restrictions they cannot make that infrastructure 
available to tribal governments, schools, teachers, students, 
or to any citizen. So you may have a high-performance computer 
right next to your home that has no electricity and no 
telephone service.
    Clearly, this basic lack of telecommunications 
infrastructure means that in an emergency there is no one who 
can call 9-1-1. And naturally, there is no means for law 
enforcement officers or emergency medical technicians to know 
that they are needed. People have died because they cannot 
reach help in a timely fashion, and tragically it is likely 
that more people will suffer serious and life-threatening 
injuries as long as there are no means of communicating with 
the outside world. I am certain all of you will agree that this 
gap must be closed.
    Finally, we know that at the Federal level, there is no one 
point of access, nor is there any agency that serves a 
coordinating function to assure that those existing Federal 
programs that provide support for community assessments and the 
development of telecommunications infrastructures and 
capacities are adapted to the unique needs of Indian country.
    So we look forward to receiving your testimony this 
morning. I would like to note that we have a long witness list 
today, and a limited amount of time because of new scheduling 
that was just issued by the leadership. I would like to assure 
the witnesses that all of their full statements will be made 
part of the record, and ask that you try your best to summarize 
your testimony so that there will be time for all witnesses to 
present their testimony and be heard.
    With that, I would like to welcome the first panel--K. Dane 
Snowden, chief, Consumer and Government Affairs Bureau, Federal 
Communications Commission; Hilda Gay Legg, administrator, Rural 
Utilities Service, U.S. Department of Agriculture; Kelly Klegar 
Levy, associate administrator, National Telecommunications and 
Information Administration, Department of Commerce.
    Ladies and gentleman, welcome.
    Mr. Snowden.

 STATEMENT OF K. DANE SNOWDEN, CHIEF, CONSUMER AND GOVERNMENT 
       AFFAIRS BUREAU, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Snowden. Thank you. Good morning, Mr. Vice Chairman. My 
name is Dane Snowden. I am the chief of the Consumer and 
Government Affairs Bureau for the FCC. I appreciate this 
opportunity to again appear before you and discuss the FCC's 
role in addressing the continued advancement of 
telecommunications and information services in Indian country.
    Just over 1 year ago, the FCC completed its reorganization. 
My Bureau established an Intergovernmental Affairs Office in 
part to honor and respect the government-to-government 
relationship we have with federally recognized tribes. 
Establishing this office has resulted in, one, centralizing 
communications between the tribes and the Commission; and two, 
raising the profile within the Commission of issues impacting 
the provision of telecommunications services in Indian country.
    Since my appearance 1 year ago, we have aggressively built 
upon the foundation established by the Commission only 3 years 
ago to promote telecommunications subscribership and 
infrastructure deployment within tribal communities, taking on 
the issues of outreach, consultation, and policy reform. We 
recognize the need of tribal nations to have the tools and 
resources available to help them increase access to critical 
telecommunications services. As a result, the Commission 
launched the Indian Telecommunications Initiative, or ITI. ITI 
takes multiple forms--interactive regional workshops, meetings 
with representatives of individual tribes to address their 
unique telecommunications issues, participation by Commission 
senior staff at tribal conferences, and dissemination of 
educational materials to American Indian tribes and tribal 
organizations.
    Last July, as part of ITI and the launch of a national 
outreach program to raise awareness of Lifeline and LinkUp, we 
contacted more than 550 tribes and 25 tribal associations with 
educational materials about Enhanced Lifeline and LinkUp. 
Through these efforts and others, participation in Enhanced 
Lifeline and LinkUp programs has increased almost seven-fold 
since the year 2000. Commission staff has participated in 
interactive regional workshops and conferences around the 
country. Through our participation, we have witnesses first-
hand the state of telecommunication in Indian country. Last 
September, Chairman Powell delivered the keynote at the 
National Summit on Emerging Tribal Economies. This demonstrates 
the depth of the Commission's continued commitment to outreach. 
In February, Chairman Powell and each of the commissioners and 
bureau and office chiefs hosted a meeting with the National 
Congress of American Indian executives and members of the NCAI 
Telecommunications Subcommittee.
    A central element set forth in the Commission's statement 
of policy is the goal and principle that the Commission will 
consult with tribal governments. When tribes voiced concerns 
about tower siting and historic preservation consultation, we 
responded, devoting considerable time and resources to address 
the issue. Commission staff have consulted directly with tribes 
and their representatives, as well as the United South and 
Eastern Tribes in the context of a draft nationwide 
programmatic agreement. The draft agreement among the 
Commission, the Advisory Council on Historic Preservation and 
the National Council of State Historic Preservation Officers 
proposes to streamline the national Historic Preservation Act 
review process. Consultations thus far resulted in addressing 
tribal concerns.
    When we realized the initial wireless tribal bidding credit 
rules may have been too narrow, the FCC improved the tribal 
bidding credit mechanism by expanding the rules this past 
March. The Commission also initiated a notice of inquiry, or 
NOI, asking how to facilitate the provision of spectrum-based 
services and promote opportunities for rural telephone 
companies, including tribally owned companies, to provide such 
services. In another recently released NOI, the Commission 
seeks data on competitive market conditions with respect to 
wireless service, particularly seeking data on tribal lands. 
Just last week, the Commission authorized spectrum leasing in a 
broad array of wireless services. The Commission also sought 
comment on additional steps to improve how secondary markets 
function. These steps will further promote the development of 
innovative services in Indian country.
    Finally, the Commission recently adopted an order 
pertaining to, among other things, the Enhanced Lifeline and 
LinkUp Programs that clarifies the operation of the eligibility 
criteria. This order also asked how to expand enhanced programs 
beyond reservation borders. A recent analysis based on 2000 
census data indicates that telephone penetration rates of 
federally recognized tribes has increased from approximately 47 
percent to 67 percent in the past 10 years. However, in a 
Nation that boasts a national penetration rate of 94 percent, 
we can conclude only that more needs to be done to increase 
access in Indian country. The Commission will continue to 
support the development of telecommunications infrastructure in 
Indian country, bringing basic telephone services to unserved 
and under-served areas and laying the foundation for the 
deployment of advanced services, including broadband. We will 
continue to consult with tribes and engage in a dialogue with 
industry and other Federal agencies, as well as the States, to 
determine how, working together, we can best achieve our mutual 
goals.
    I thank you for this opportunity and look forward to 
answering any questions you have.
    [Prepared statement of Mr. Snowden appears in appendix.]
    Senator Inouye. I am most grateful to the position taken by 
the agency to be open to discussion and be helpful, but I would 
like to ask a few questions as to something you can do 
immediately. We have noted that 9 percent of Native households 
have access to the Internet. My question is, is the FCC willing 
to consider extending the E-rate discount to tribal 
institutions and lower-income individuals during hours that 
schools and libraries are not using the Internet?
    Mr. Snowden. I did not follow the last part of the 
question. That are not willing to what?
    Senator Inouye. During hours when schools and libraries are 
not using this, would you permit Indian country to use that 
with the E-rate discount?
    Mr. Snowden. I think that is something that we should 
seriously look at. At the FCC, we are currently evaluating the 
entire E-rate program to make sure that, first, the funding is 
still there, to make sure that it is not in jeopardy, which it 
is not, and we want to continue our efforts in that area. In 
addition, I think it will be important for us to take what you 
are asking and take it back to the Commission and have our five 
commissioners debate that issue.
    Senator Inouye. Will you tell them that this is the most 
severe situation one can find in the Nation. There is no other 
community where one can say we have less than 10 percent access 
to Internet, and that is what it is in Indian country. So I 
would like to see the time when an Indian child can dial 911, 
for example, and get the ambulance.
    Do you know of anything we can do, that Congress can do to 
change the laws, besides appropriating additional funds?
    Mr. Snowden. I think the U.S. Congress can do whatever the 
U.S. Congress sees fit to do.
    Senator Inouye. No; but can you suggest something?
    Mr. Snowden. I think what we need to do is evaluate the 
situation. As you referred to the 911 situation, I can say that 
we are seriously looking at that issue across the board. We 
recently held an E-9-1-1 coordination initiative to discuss the 
importance of this issue, and elevate it to a level where 
someone on a reservation does not have that problem. We do plan 
to coordinate with the tribes on that particular issue as we 
move forward. We just held that forum about 2 weeks ago.
    Senator Inouye. Mr. Snowden, I thank you very much, and 
will you convey to the Commission our gratitude.
    Mr. Snowden. Yes, sir.
    Senator Inouye. And tell them to make this their highest 
priority?
    Mr. Snowden. I will. Thank you, sir.
    Senator Inouye. Thank you, sir.
    Ms. Legg.

  STATEMENT OF HILDA GAY LEGG, ADMINISTRATOR, RURAL UTILITIES 
               SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Legg. Senator Inouye, vice chairman of the committee, 
thank you very much for the opportunity to testify at this 
oversight hearing on the status of telecommunications in Indian 
country. And thank you also for your vision in understanding 
what modern and high-speed telecommunications means and how 
that can make a difference in the quality of life for the folks 
who live on Native American reservations. Today's advanced 
telecommunications network will allow Native American 
communities to become platforms of opportunity for businesses, 
both new and established businesses, to compete locally, 
nationally and globally. On behalf of President Bush, Secretary 
Veneman and Under Secretary Tom Dorr, I assure you that we are 
committed to enabling and empowering these communities through 
working with them in whatever way we can.
    Whether that be assisting them with development of a sound 
business plan or making sure the right technology is fitted to 
the right community, or educating potential customers to the 
application of cutting-edge technologies, we want to be a 
driving force in helping to create that economic demand. USDA 
is very proud of its contributions to improve the 
infrastructure in many Native American communities. Its Rural 
Utilities Service [RUS] has worked with telephone companies and 
cooperatives serving Native Americans since the inception of 
our program, both in electric, water and waste, and 
telecommunications. In 1961, RUS made its very first loan to 
bring electricity to the Navajo Nation. In 1976, we financed 
the first tribal telephone company, the Cheyenne River Sioux 
Tribe Telephone Authority, in Eagle Butte, SD. We are 
especially proud of our efforts working directly with tribally 
owned and operated telecommunications utilities.
    RUS has financed six tribally owned telecommunications 
companies for service exclusively to the reservation. 
Unfortunately, there are still many communities without the 
access to advanced telecom services. And Native Americans 
living on tribal reservations have some of the lowest telephone 
penetration rates in the Nation. This lack of 
telecommunications infrastructure contributes to high 
unemployment, depressed economic conditions, and reduced 
educational opportunities and medical care. Studies show that 
this trend has begun to change, but the question is, how do we 
ensure that these access to service numbers will continue to 
rise?
    First, we look for partnerships to develop 
telecommunications systems. The key to developing a successful 
telecommunications system is a good sustainable business plan, 
one that has the support of the tribal community and meets that 
community's needs. To ensure that success, there must be a 
willingness of the community to share in the investment. Local 
ownership and local control have always been the keys to 
providing quality service and ensuring business success. Local 
leadership must drive the acceptance of new technologies by 
being users themselves, such as demonstrating and explaining 
and understanding the uses of new technologies to local 
businesses, or designing courses that can be taught over the 
Internet, or embracing new technologies through their personal 
use, such as being able to have your own EKG read via 
telemedicine.
    A clear success of this type of partnership is in the Gila 
River Telecommunications, Inc. story. Gila River is a tribally 
owned and operated telecom system. It began as a start-up. It 
had no distribution lines. But by partnering with an 
independent telephone company, Dobson Communication, it was 
able to obtain the cash to begin business, and with 
telecommunications loans from the RUS, Gila River was able to 
construct an advanced telecom system capable of broadband 
delivery. As a result, the most remote of Native Americans 
living on the reservation had access to modern 
telecommunications services, and the tribal authority was able 
to build an industrial park and then recruit 50 businesses to 
locate on the reservation.
    Of course, hand-in-hand with job creation, education and 
health care factors must be considered in an economic 
development strategy. Our distance learning and telemedicine 
program, during its 11-year history, has made more than $17 
million in grants to provide the critical services of 
telemedicine and education to Native Americans. And when we 
speak about telemedicine, the life-saving medical procedures 
that can be performed via advanced telecom networks, they are 
boundless and they result in improved quality of life that is 
truly immeasurable. However, we as a government need to work 
together to remove barriers such as the fact that the Indian 
Health Service clinics are considered Federal facilities and 
are not eligible for our distance learning and telemedicine 
funding.
    One of RUS's greatest success stories for Indian country 
came recently, on May 16, when Secretary Veneman announced our 
Community Connect grants. Of the 40 grants that were announced 
totaling $20 million, 10 of those grants totaling $6.2 million 
were awarded directly to Native American communities. Another 
three for almost $2 million were awarded to telecommunications 
providers to bring service exclusively to Native American 
reservations. These grants competed on a national level. There 
were over 300 applications, and yet the Native American 
projects won on their own merit. It was the quality of the 
application. There were no automatic set-asides. There were no 
eligibility parameters. These were good, strong applications 
and we are delighted that that percentage is so high and we are 
looking forward to working with them.
    As I close, there are many ways in which every facet in the 
quality of life of rural residents can be impacted positively 
by the deployment of advanced telecom services. Every industry, 
every business, every educational institution, every health 
care facility and truly every home will benefit from the 
deployment of broadband. It is up to us, as the facilitators to 
this opportunity, to challenge our rural communities and our 
partners in the telecom industry to increase the public 
knowledge of this tremendous life-changing resource and to 
demand a level that achieves maximum benefit for our Native 
Americans.
    Thank you again for the opportunity, and I will be glad to 
answer any questions, Senator Inouye.
    [Prepared statement of Ms. Legg appears in appendix.]
    Senator Inouye. Thank you very much, Ms. Legg. Your agency 
is one of the principal agencies that make available grants and 
funds to Native Americans. I noted in your testimony that there 
were 300 applicants.
    Ms. Legg. Correct.
    Senator Inouye. And of that number, 20 were selected?
    Ms. Legg. Of that number, sir?
    Senator Inouye. Of that number 20 were selected?
    Ms. Legg. There were 300 applicants, totaling $185 million, 
and we have $20 million to grant. Of the $20 million, almost $9 
million of it will go to serve Native Americans.
    Senator Inouye. Were there many other qualified entities 
that you could not serve, say tribal groups?
    Ms. Legg. In tribal groups, the greatest need really came 
from the Native Americans, so they did score very high. There 
were some applications obviously that we could not serve and 
there were tribal communities within those applications, yes, 
sir.
    Senator Inouye. What I am leading to is if you doubled your 
amount, would you be able to provide more assistance to tribes?
    Ms. Legg. Yes, sir; we would.
    Senator Inouye. If the Communications Subcommittee 
suggested additional funds, would your agency object to it? 
[Laughter.]
    That is a serious question because oftentimes the 
Administration says no.
    Ms. Legg. Our agency will carryout whatever Congress 
directs us to do, sir. This year's budget has $10 million for 
the broadband grant program, which we call Community Connect, 
so we will be making some more grants this year.
    Senator Inouye. So you think that at the present time, your 
agency can distribute more funds effectively?
    Ms. Legg. Yes, sir.
    Senator Inouye. I thank you very much.
    Ms. Legg. Thank you, Senator.
    Senator Inouye. And now may we hear from Ms. Levy.

STATEMENT OF KELLY KLEGAR LEVY, ASSOCIATE ADMINISTRATOR, OFFICE 
OF POLICY ANALYSIS AND DEVELOPMENT, NATIONAL TELECOMMUNICATIONS 
     AND INFORMATION ADMINISTRATION, DEPARTMENT OF COMMERCE

    Ms. Levy. Mr. Vice Chairman, I thank you for the 
opportunity to testify this morning on behalf of the National 
Telecommunications and Information Administration [NTIA], 
setting forth our views of the role of the Federal Government 
in addressing the telecommunication needs in Indian country.
    NTIA serves as a principal adviser to the President, Vice 
President and Secretary of Commerce on domestic and 
international telecommunications and information policy issues. 
The Administration shares your interest in ensuring that 
telecommunications and information networks and services are 
available in Indian country. Clearly, we face a unique set of 
challenges here. In general, these communities are low-
population densities and low-income areas. We have had 
difficulties with the data collection, research and analysis 
that are needed to assess the telecommunication needs of 
American Indian communities. We need to determine the type of 
telecommunications technologies that would best serve the needs 
of these communities and be affordable.
    There are also questions as to whether existing 
telecommunications companies are serving the needs on Indian 
reservations, how to create and sustain tribal 
telecommunications companies, and what is the appropriate role 
of competition with tribal telecommunications companies. On all 
these issues, tribal input and consultation are critical.
    NTIA understands the importance of basic telephony, as well 
as Internet access for all Americans. We have released a series 
of reports that profile Americans' access to the Internet at 
home and outside the home, and how different demographic groups 
are using the Internet. Our most recent report, entitled A 
Nation On-Line, which we coauthored with the Department of 
Commerce's Economics and Statistics Administration, and 
released in February 2002, analyzed census data taken from 
57,000 households. We have been able to report the raw data 
regarding access to and use of computers and the Internet by 
American Indians, Eskimos, and Aleuts. Unfortunately, however, 
because of the small sample size of these populations and the 
high cost of over-sampling, we have been unable to obtain 
enough data points for these populations to run economic 
analysis and draw conclusions on the data in our reports. Our 
next census survey will be taken in October 2003. We hope that 
the numbers now will be large enough to provide a statistical 
baseline for measuring American Indian's use of computers and 
the Internet. We will be happy to share these findings with you 
and other interested parties once we have them.
    At NTIA, we have worked hard to connect American Indian 
communities to advanced telecommunications services. Our 
Technology Opportunities Program [TOP], has been providing 
matching grants to nonprofit institutions and State, local and 
tribal governments to demonstrate ways to use advanced 
information technologies, to provide access to public 
information and tribal government services, to offer greater 
access to health care services and tribal cultural services, 
and to provide job training and opportunities. TOP grants have 
provided seed funding for such projects that then receive 
sustaining funding from other sources. Approximately 9 percent 
of our past TOP grants, which is about $17.5 million, have been 
awarded to tribes or organizations that serve tribes. For 
example, TOP grants have been awarded to the White Mountain 
Apache Tribe, the Pueblo of Santa Ana, the Minneapolis American 
Indian Center, the Navajo Technology Empowerment Centers, and 
the Cherokee Nation for projects establishing community-wide 
networks that enhance access to educational, economic 
development, health, government and electoral services, as well 
as build capacity for e-commerce, e-training and distance 
learning.
    NTIA has also helped to extend the benefits of 
communications technology to American Indian and Alaska Native 
communities through the Public Telecommunications Facilities 
Program [PTFP]. This program has made a significant 
contribution to the public broadcasting system in Indian 
country by engaging in outreach efforts and providing critical 
funding. PTFP has funded seven Native American projects over 
the past two fiscal years, including grants for Native-oriented 
public radio service, as well as construction grants to improve 
the transmission equipment of stations licensed to tribes.
    NTIA is not alone in our efforts to address 
telecommunications needs in Indian country, as my colleagues 
from the FCC and RUS have testified today. In addition, the 
Federal Government's efforts on spectrum reform, including 
authorizing secondary markets and the five GHz allocation will 
also engender opportunities for meeting the needs in Indian 
country. These reforms enable us to use the spectrum resource 
better, and allow for more innovative use of both licensed and 
unlicensed wireless technologies to meet these needs. For 
example, as part of a National Science Foundation-funded effort 
called Advanced Networking with Minority-Serving Institutions, 
Motorola deployed its unlicensed wireless Canopy service on 
three Indian reservations, providing them Internet access as 
well as video and IP telephony services.
    Mr. Vice Chairman, I thank you again for the opportunity to 
testify and welcome any questions you may have for me.
    [Prepared statement of Ms. Levy appears in appendix.]
    Senator Inouye. I thank you very much, Ms. Levy. As you are 
well aware, the primary and largest source of funding is the 
Department of Agriculture. In the title of that Department, 
there is no word ``communication'' or ``telecommunication.'' 
The second source of funding is the Technology Opportunity 
Program. I commend you for the $17.5 million that have been 
spent to date, but why is the President discontinuing this 
program if it is such a good program?
    Ms. Levy. As I understand it, the President's budget 
reflects the Administration's belief that the program's mission 
has been fulfilled. At this point, the President is looking to 
other programs in the Administration. The programs at RUS, such 
as the community grants and the broadband grants, the programs 
at the FCC such as the e-Rate, and the programs at the 
Department of Education, to implement many of the lessons 
learned from the TOP program.
    Senator Inouye. Well, the NTIA is going to discontinue the 
Technology Opportunity Program. The only remaining program that 
we are aware of is the Agriculture one.
    Ms. Levy. A lot of the distance learning grants that we 
have provided, we have learned lessons that are now being 
implemented by the funding over at the Department of Education.
    Senator Inouye. The third source is the Department of 
Education Community Technology Center Program, is that it?
    Ms. Levy. That is one of them.
    Senator Inouye. The budget proposes no funding for this 
program.
    Ms. Levy. I think that the President's budget is looking 
toward the Department of Education's $700 million in its 
educational technology grants--grants that are delivered 
directly to the States.
    Senator Inouye. Does it not propose eliminating this 
Community Technology Center Program?
    Ms. Levy. I believe that is also in the President's budget, 
yes.
    Senator Inouye. Do you not want to restore it? We are 
talking about all the problems--about 9 percent having 
Internet, less than 40 percent with telephone service, no one 
can use the 9-1-1. I am glad that all of us are saying we are 
going to do our best, but at the same time while we are saying 
we are going to do our best, we provide no funding. It is not 
your fault, I realize that, but will you go back to your 
leaders and tell them Indian country has a few problems?
    Ms. Levy. I will do that, sir.
    Senator Inouye. And just remind our leaders that in every 
war in the last century and this century, Indian country has 
sent more sons and daughters in uniform in the military service 
of our Nation per capita than any other ethnic group. In many 
ways, they have paid their dues. It is about time they got the 
benefits.
    [Applause.]
    Senator Inouye. As you can see from the response here, I 
appreciate the testimony of you three and I know you are doing 
your best, but please tell your seniors and principals that it 
is a serious problem and I hope that the Administration will 
reconsider restoring these programs. They have great promise.
    Thank you very much.
    Ms. Levy. Thank you.
    Ms. Legg. Thank you, Mr. Vice Chairman.
    Mr. Snowden. Thank you.
    Senator Inouye. Our next panel is made up of the president 
of Kade L. Twist Consulting of Arizona, Kade L. Twist; and the 
president of Native Networking Policy Center, Marcia Warren 
Edelman.
    Mr. Twist, it is your show now.

STATEMENT OF KADE L. TWIST, PRESIDENT, KADE L. TWIST CONSULTING

    Mr. Twist. Mr. Vice Chairman, I would like to thank you for 
inviting me to testify here. It is an honor to be here with you 
today. I would like to express my sincere appreciation for your 
continuing efforts to improve the status of telecommunication 
in Indian country. I think you are providing tremendous 
leadership on this issue.
    My name is Kade L. Twist. I am a member of the Cherokee 
Nation and president of Kade L. Twist Consulting. I have been 
conducting research on the subject of telecommunications in 
Indian country for the past year as a consultant for the Ford 
Foundation. Prior to that, I was with the Benton Foundation as 
a policy analyst specializing in telecommunications in Indian 
country. While at the Benton Foundation, I was a member of a 
talented and dedicated staff that was responsible for shaping 
much of the public discourse pertaining to what is now referred 
to as the digital divide.
    Over the course of my research, one significant finding has 
emerged over and over. That is providing equipment and 
infrastructure is not a solution in and of itself for the 
telecommunications development needs of Indian country. 
Equipment and infrastructure are merely tools. They are only 
effective when they are applied in a manner that provides for 
and advances the social, civic and cultural needs of respective 
Indian communities. Even if every mile of Indian country were 
to be fully wired, many tribes do not have the knowledge, 
expertise and organizational capacity to effectively utilize, 
manage and sustain their infrastructure.
    Telecommunications systems are very expensive to sustain, 
and require a large number of staff with a wide array of skill 
sets to keep them up and running. These technologies require a 
great deal of experience, expertise, creativity, community 
education, community organizing to utilize them in a manner 
that complements the cultural will of tribal people, while 
meeting their civic and social needs. Therefore, stakeholders 
should match their investments in equipment and infrastructure 
with investments in human capital. It is critical for 
stakeholders to pay close attention to capacity building and 
sustainability issues, because Indians have just begun the 
process of making telecommunications fit their respective 
cultural and social worlds. This is a new technology. This is a 
new enterprise. It is a new ball game for us.
    Therefore, Indian nations have an intense need for 
planning, community organizing, training, technical assistance, 
capacity building assistance and the recruitment of talent with 
a diversity of skill sets. Indian nations must develop their 
organizational infrastructures to ensure the appropriate 
development and sustainability of telecommunications endeavors 
on tribal lands, as well as ensuring the consumer rights of 
their respective tribal members.
    One of the main issues that I have been addressing is the 
knowledge and capacity building. During the course of my 
research and speaking with top Indian telecommunications 
executives and information managers, practitioners in the 
field, they have identified knowledge and capacity-building 
needs as more significant even than funding and development 
needs. Furthermore, respondents expressed frustration toward 
existing knowledge and capacity-building resources because they 
were typically limited to 1-day workshops that do not address 
the specific needs of their specific communities, and provide 
very little or no opportunities for ongoing support. The 
majority of respondents also state that they experienced 
difficulty accessing capacity-building funds for their 
respective organizations. That is both through the Federal 
sector and through the private foundation sector. The following 
is a list of the most frequently identified knowledge and 
capacity-building needs. First, is core funding; second, is 
training and technical assistance; third, is planning; fourth, 
is community organizing; fifth, is research, data collection 
and analysis; sixth, is technology selection; seventh, is 
demand aggregation; eighth, is regulatory systems, regulatory 
codes; nineth, is fundraising; and tenth, is recruiting staff 
with advanced skill sets.
    Therefore, I have two recommendations at this point. First, 
is to urge this committee to design and implement a funding 
mechanism that is specifically designed to meet the 
telecommunication needs of Indian country and flexible enough 
to accommodate pre-development, development, and knowledge and 
capacity-building endeavors as well.
    Indian country needs its own funding mechanism for 
telecommunications development because Indian nations should 
not have to compete against States, municipal governments and 
other incorporated entities to gain access to the benefits of 
the Federal Government's trust responsibility. Furthermore, 
Indian country needs a telecommunications funding mechanism 
that adequately addresses its pre-development and knowledge and 
capacity-building needs. Currently, no such Federal funding is 
readily available, including that of the RUS broadband pilot 
project and the TOP Program. The funding mechanism should be 
designed to link telecommunications investment with nation-
building, economic development, cultural preservation, 
community networking and efforts to improve upon core public 
services such as education, health care, housing, law 
enforcement, fire and public safety and enhanced 9-1-1 
services, which as you have already identified as very, very 
important and critical to public safety right now in Indian 
country. The key to linking these developments with these 
services is promoting community-driven telecommunications 
development that is scalable, efficient, sustainable and 
better-suited for leveraging diverse sets of resources.
    I would like to also mention, and reiterate the comments of 
Hilda Gay Legg of RUS, that the current broadband pilot project 
is going to be reduced from $20 million to $10 million, or at 
least planned to do so. So what progress has been made this 
year will not be duplicated next year. So it may be a 
smokescreen of some sort. The second recommendation would be to 
facilitate the development of a system of training, technical 
assistance and knowledge and capacity building intermediaries 
for telecommunications in Indian country. There is a need for a 
system of American Indian nonprofit telecommunications 
intermediaries capable of providing training and technical 
assistance, knowledge and capacity-building assistance, 
brokering broad-based partnerships, facilitating collaboration, 
leveraging multi-layered funding sources, and leveraging 
political clout. There are already such systems in place--
training and technical assistance, capacity-building and 
intermediaries, for TANF, WIA, for housing, for economic 
development and so on. Yet there is not an organized system for 
telecommunications.
    However, there are individual organizations such as 
Affiliated Tribes of Northwest Indians and the Southern 
California Tribal Chairman's Association that have been very 
successful telecommunications intermediaries. In fact, 
representatives from both ATNI and SCTCA are here today to 
testify about their tremendous achievements. These are 
precisely the types of organizations that should serve as 
models for building a comprehensive system of 
telecommunications intermediaries for all of Indian country. 
Regional intertribal organizations already play a significant 
role as intermediaries for TANF, WIA, economic development and 
so on. They are already well-positioned to play a role as 
intermediaries for telecommunications as well.
    Likewise, there are already a number of national American 
Indian nonprofit organizations such as the Native Networking 
Policy Center, the National Indian Telecommunications 
Institute, and the National Congress of American Indians which 
are already well-positioned to add value to the work of 
regional intertribal organizations. All that is needed is 
funding to support their work and to support their organizing 
efforts.
    In conclusion, funding assistance for telecommunications 
development that does not include knowledge and capacity-
building merely solves half of the equation--the non-human side 
of the equation. Indian country stands to benefit most from an 
investment in equipment and infrastructure that is matched 
equally with an investment in its people. An investment in 
building the capacity and knowledge of Indian people will 
contribute to their ability to manage, sustain and adapt these 
technologies so that they effectively meet the needs of Indian 
communities.
    Thank you very much.
    [Prepared statement of Mr. Twist appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Twist. You may be 
aware that there are 562 recognized tribes in the United 
States. Of that number, optimistically 20 tribes can be 
considered to be wealthy and self-sufficient. Most tribes are 
very, very poor, almost on a deadly level, with unemployment as 
high as 90 percent. Obviously, these tribes just cannot afford 
to hire these organizations to give them the expertise and what 
have you, which leads us into this awful situation where high 
technology surrounds this Nation, but Indian country is not 
ready to absorb it. What can we do to make certain that we 
provide training, expertise and proper assessments of the needs 
because if you asked the other 460 tribes, they may not know 
what to do, and they do not have the loose money to spend to 
hire experts. There are many tribes that can do that, but most 
tribes do not have the capacity to do that. So we have to be 
realistic, so you tell me what this committee can do.
    Mr. Twist. I would like to point out one thing before I 
answer that question specifically, and that is the program like 
the broadband pilot project, the majority of tribes would not 
be able to even apply for that because they would not have the 
$20,000 or $30,000 necessary to get an application completed. 
That is why it is so critical just to get to that level that we 
need a system of intermediaries. I would believe that it should 
be done on a pilot project basis and it should be modeled after 
the intermediaries that serve TANF, because I believe that TANF 
is most critically linked to the needs of universal service. I 
think that a lot of data- sharing can happen to gain a higher 
enrollment of Native people in the Enhanced Lifeline and LinkUp 
Programs through that type of collaboration. But I think TANF 
intermediaries to represent the most comprehensive and 
effective model out there.
    Senator Inouye. I am going to suggest to the NCAI that they 
make this their top priority project, so that Indian country 
can get into this new high technology world. Otherwise, the 
inequities that will result from this would make a bad 
situation that we have today worse. So I thank you very much, 
Mr. Twist.
    Mr. Twist. Thank you.
    Senator Inouye. We will be conferring with you as to what 
we can do. If you have any suggestions on what we can do 
legislatively, do not hesitate to share them with us.
    Mr. Twist. Thank you very much, sir.
    Senator Inouye. Ms. Edelman.

     STATEMENT OF MARCIA WARREN EDELMAN, PRESIDENT, NATIVE 
                    NETWORKING POLICY CENTER

    Ms. Edelman. Good morning, Vice Chairman Inouye, members of 
the committee, tribal representatives and leaders, and 
distinguished guests. Thank you for the invitation to come 
before the committee today to discuss the current status of 
telecommunications in Indian country.
    My name is Marcia Warren Edelman. I am an enrolled member 
of the Santa Clara Pueblo located in Northern New Mexico, and 
the president of a newly formed nonprofit organization, 
incorporated actually this March 2003, that focuses on 
facilitating the development of a collaborative policymaking 
process, building Native capacity, and increasing education 
outreach among tribes and policymakers at all levels of 
government on issues regarding the digital divide in Indian 
country. We are named the Native Networking Policy Center. I am 
pleased to be here representing our group.
    From 1999-2002, as you may be familiar, I served as the 
Senior Policy Adviser for Native American Affairs at the 
Department of Commerce, and was fortunate to be there during a 
time when the digital divide became a national catch-phrase and 
a national priority. I worked with many issues with NTIA and 
also with the Secretary's office as we conducted visits to 
Indian country to examine this particular issue. I am also the 
co-author of Native Networking in Telecommunications and 
Information Technology in Indian country, a report that the 
Benton Foundation published in 1999.
    As we have heard before and in last year's testimony, this 
is an extremely dire situation, an issue that has been brought 
up in a number of reports that have been referred to--four of 
them, three published in 1999 by NTIA, by the Economic 
Development Administration, Benton Foundation. Also the 
National Congress of American Indians published their own 
report in 2001 that was based on the findings of their Digital 
Divide Task Force. In that report, it outlined specific areas 
of policy and action that can be used as a basis for future 
collaborative efforts, I believe, between NCAI, regional 
organizations and policymakers at the tribal and national 
levels. I would encourage the committee to refer to that report 
at their Web site, www.ncai.org, or also on their national 
clearinghouse site, which is Indiantech.org, where they have a 
number of these reports already available.
    In Falling Through the Net: Defining the Digital Divide, 
the NTIA report, we saw statistics showing that Native American 
households ranked far below the national average, at 76.4 
percent. The national average at that time was 94.1 percent. 
And showing that the digital divide in this country is really a 
dial tone divide. The basic service of telephone access was 
being denied to our own reservations and our own tribal 
communities at a level that I feel is highly unacceptable. I 
commend the committee for holding last year's hearing to 
introduce the issue to members of the Committee on Commerce, 
and also to the general public, and keeping the issue alive 
over the past year. As a result of that hearing, I believe that 
additional policy efforts were made in Indian country to start 
discussing on a very real level some recommendations and some 
forward action items that we could undertake in conjunction 
with the Federal Government and also Congress.
    I would like to bring up three areas that I outlined in my 
testimony last year as sort of an overview of some of the 
efforts that have been taking place over the past few years and 
to provide a current status of policy discussions today. Last 
year, I noted that there were three obstacles to 
telecommunications infrastructure deployment in Indian country. 
First, is the lack of investment capital in technical 
assistance, as my colleague Mr. Twist has mentioned; second, is 
a lack of current and accurate information; and third, the lack 
of ongoing coordination of resources. As we have heard today, 
we have had some Federal programs that have had great impact in 
Indian country in terms of capital and technical assistance, 
namely the TOP program from NTIA, the CTC program at the 
Department of Education, RUS's program of broadband technology 
grants, as well as the telemedicine and distance learning 
grants. Another one that we have not heard too much about, but 
I believe is still quite important, which is the Department of 
Treasury's Native American Community Development Financial 
Institutions Program, which has provided ongoing funding for 
new organizations, new financial institutions that serve 
primarily Indian country, to develop and thus provide a new 
source of capital that can be directly tapped into by Indian 
nations throughout this country.
    Some of these are quite small. Some of them are more 
developed. However, this is still an important starting point 
for tribal communities, individual entrepreneurs, and tribal 
businesses to begin working to develop the kind of capital that 
they need in order to realize their own business goals.
    However, as we have discussed, overall funding for 
telecommunications and information technology projects in 
Indian country remains inadequate to address the needs of these 
communities, especially in the areas of feasibility studies and 
upgrades and ongoing operations support, and also ongoing 
technical assistance. I urge the committee to ensure that the 
Technology Opportunities Program and the CTC Programs are 
preserved in some way, shape or form, and at the very least 
that the lessons learned from these programs are not lost.
    A second point, the current inaccurate information--over 
the course of 2 days in February 2003, three important meetings 
took place which examined telecommunications policy and 
practice in Indian country. The first was the NCAI 
Telecommunications Subcommittee conducted a half-day policy and 
advocacy meeting after the NCAI winter session. The FCC 
conducted a day-long meeting with a high-level delegation of 
tribal leaders and representatives of tribal telecommunications 
companies and organizations to discuss ways to improve access 
to telecommunications products and services throughout Indian 
country. Also, this committee invited attendees of both those 
meetings to an informal brainstorming session to explore ways 
to develop legislation to address the issue.
    We saw the first result of these meetings at the beginning 
of this month with the release of the new FCC report on 
telephone subscribership on Indian lands, which shows that 67.9 
percent of American Indians have telephone service, compared to 
46.6 percent in the 1990 census. The good news is that of 
course over the past 10 years there has been a 20-percent 
increase in residential access. However, the bad news is that 
we remain well below the national average of 95.1 percent, and 
that figure is based on July 2002 census current population 
surveys.
    It was also evident during these meetings that even though 
many efforts have been made to address the need in Indian 
country for access to infrastructure and funding information 
technical assistance, these efforts have not resulted in a 
consistent and coordinated activities process that can best 
serve tribes and tribal organizations working to close the gap. 
What is missing is a central repository for policy development, 
research and educational outreach, which can effectively 
address the problems being presented to date to the Native 
community. For this reason, our organization, the Native 
Networking Policy Center, was created in order to leverage the 
existing experience, resources and efforts already underway to 
finally achieve the goal of digital inclusion in Indian 
country. We were formed as a nonprofit whose mission is to 
ensure equitable and affordable access to, and the culturally 
appropriate use of, telecommunications and information 
technology throughout Indian country. We are working to achieve 
this mission by addressing the following goals: First, policy 
development to ensure the inclusion of Native interests in the 
development and promotion of policies at all levels of 
government to improve and increase the deployment and use of 
telecommunications and information technology throughout Indian 
country; second, research and evaluation, to conduct research 
and data collection to create a baseline of information to 
support policy development and education efforts, as well as to 
inform local and Federal stakeholders of relevant and current 
information impacting telecom and information technology needs 
in Indian country; and third, education and outreach, and we 
wish to analyze, evaluate and disseminate all relevant 
information and resources to tribes, Native organizations, 
policymakers and practitioners so that they can develop 
policies that will promote the appropriate and timely 
deployment of telecom and information technology infrastructure 
throughout Indian country.
    We feel the expertise to address these issues exists among 
tribes in the public and private sector today. All that is 
needed is an organization to focus on providing information and 
communication between the stakeholders necessary to achieve 
these results. Our organization is willing to serve in this 
capacity as an added value to any tribe or public or private 
sector entity by providing the policy and information tools 
necessary to best coordinate the efforts, create resources, 
identify relevant information and promote awareness and action.
    I feel today tribes are at a pivotal point in history. 
Self-determination policies have begun to yield measurable 
results in Native communities in the development of diversified 
tribal economies, to the revitalization of Indian languages and 
culture. Throughout the country, the number of tribal and 
Indian-owned enterprises has grown dramatically, and many 
tribes have become active participants in economic and 
political arenas on both local and national levels. However, 
the impressive growth we have seen in these areas will continue 
to be limited as long as the opportunities afforded by access 
to the digital economy of this Nation exist beyond the 
boundaries of infrastructure, funding and regulations existing 
in our Indian country communities today.
    It belongs to those of us in the room today and who we 
represent to work together to further the progress being made 
in closing the digital divide in Indian country. I am confident 
that today's hearing will provide the substance and direction 
to bring the resolution of this issue into action. I thank you 
for your invitation to testify, and welcome any questions you 
may have.
    [Prepared statement of Ms. Edelman appears in appendix.]
    Senator Inouye. Ms. Edelman, I would assume that everyone 
in this room is not only interested in telecommunications, but 
involved in it in some way. The statistics that I cited when I 
opened the hearing are tragic statistics. Many of us sitting 
here comfortably think that the high-tech age is a good thing 
for us, therefore we want everyone to benefit from it. Is that 
the feeling in Indian country? Does Indian country really want 
this?
    Ms. Edelman. I believe our communities see technology not 
as the solution to all the problems, but as a valuable tool. I 
believe that the discussion has really taken root as to how 
technology can be used in a culturally appropriate way, can be 
used as a facet of strategic planning to achieve the goals of 
the community, the vision of the communities. I think we may 
have passed the point where technology represented the new and 
interesting area to explore, and has become really more of the 
realistic facet of planning and implementation of what the 
community itself sees itself achieving.
    Senator Inouye. Mr. Twist has said that unfortunately most 
communities are not prepared to absorb the funding or resources 
that may be available because of the lack of trained personnel 
and the lack of experience and such. How do we bring this 
about?
    Ms. Edelman. One of my greatest----
    Senator Inouye. Are there any places where large numbers of 
Indians can go to study?
    Ms. Edelman. For this particular issue? No, that is one 
area of development that needs to be examined. We do not have 
as many individuals in Indian country that understand 
telecommunications.
    Senator Inouye. Do the Indian community colleges provide 
studies and courses on what to do?
    Ms. Edelman. Actually, I think Mr. Twist may want respond 
to that.
    Mr. Twist. I would like to defer that to Carrie Billy who 
will be providing testimony later on. The American Indian 
Higher Education Consortium has made a concerted effort to 
organize the tribal colleges to provide that anchor in the 
communities that is needed to develop that sort of expertise 
and awareness of the issues as well, but mainly, the expertise, 
and to keep that, to retain that expertise within the 
communities. By far, AHEC has provided the most comprehensive 
leadership on this issue. I think they should be worked with in 
addressing that and expanding that to other institutions that 
serve large populations of Indian people, Native people, like 
Arizona State University, University of Arizona, University of 
Oklahoma they have very high Native enrollment.
    Senator Inouye. If I may, I will be sending questions to 
all of you because we just do not have the time today. I hope 
you can respond to them.
    Ms. Edelman. I would be happy to.
    Senator Inouye. I want to thank both of you for joining us 
today and helping us with your testimony. Thank you very much.
    Ms. Edelman. Thank you.
    Senator Inouye. Our next panel consists of the Governor of 
the Gila River Indian Community of Arizona, Richard P. Narcia. 
He will be accompanied by the chairman and president of the 
Gila River Telecommunications Inc., Robin N. Fohrenkam. The 
next witness is the chairperson of the Fort Mojave Indian Tribe 
of California, Nora McDowell, and the president of Turtle 
Island Communications, Madonna Peltier Yawakie of North Dakota.
    I would like to call upon Governor Narcia. I gather that 
you have a plane to catch, so please proceed, sir.

  STATEMENT OF RICHARD P. NARCIA, GOVERNOR, GILA RIVER INDIAN 
  COMMUNITY, ACCOMPANIED BY ROBIN N. FOHRENKAM, CHAIRMAN AND 
  PRESIDENT, GILA RIVER TELECOMMUNICATIONS, INC., CHANDLER, AZ

    Mr. Narcia. Good morning, Vice Chairman Inouye. My name is 
Richard Narcia. I am Governor of the Gila River Indian 
Community, and on behalf of the community I am very pleased to 
be here to provide some testimony regarding issues of 
telecommunications and technology implementation that has 
evolved in our community.
    Accompanying me is Robin Fohrenkam, who is the chairman of 
the board of directors for the Gila River Telecommunications, 
Inc. [GRTI].
    Also, I would like to acknowledge other members of our 
community that are here from the board: Cecil Antone, former 
Lieutenant Governor; Reuben Norris, a board member; Steven 
Lewis; Aiessa Fullen, who is the current general manager of 
GRTI; and Gary Bohnee, who is my executive assistant.
    Over the past several years, the community, through its 
partnership with its community-owned telecommunications 
company, and the development of a management information system 
has devoted significant resources to bring our technology 
system on par with current levels. A little background on our 
community--we are composed of two tribes, the Pimas and the 
Maricopas. The 373,000-acre reservation was established by an 
Act of Congress in 1859. Today, the community is the home for 
nearly 50,000 members and is the largest Indian community in 
the Phoenix metropolitan area.
    Traditionally, we are an agricultural people, and in recent 
years we have attempted to diversify into other various 
entities and businesses. We have developed industrial parks 
that are home to local and national companies. The community 
owns and operates three gaming facilities. Recently, the 
community has developed a premier destination resort spa and 
golf facility. Next month, our Sheraton Wild Horse Pass will 
host the National Congress of American Indians mid-year 
conference. Additionally, the community has established several 
tribally chartered corporations including the Gila River 
Telecommunications, or GRTI as we refer to it.
    As the leadership of the community has planned for the 
diversification of its economy, while also providing essential 
services to our constituents, it has been vital that we invest 
adequate resources in technology and telecommunication. A key 
element in our community's ability to implement technology 
improvements has been through the efforts of GRTI. GRTI was 
formed in 1988 for the primary purpose of providing telephone 
service for our community members. At that time, it was not 
cost-effective for our community members to receive this type 
of service. Some services would cost approximately $20,000 for 
one service. With initial capital funding from the Department 
of Agriculture Rural Utilities Service and continued support by 
way of low-interest Government loans for infrastructure and 
construction from RUS, GRTI has been able to continue providing 
reasonably priced service for our customers. The model that has 
evolved has allowed GRTI to use of a combination of private 
financing, Federal funding, and loan programs. In fulfilling 
its mission, GRTI has increased the number of telephone 
subscribers, promotes community employment, improves the 
quality of service, and provides state-of-the-art technology. 
Today, the GRTI system consists of 117 miles of fiber optic 
cable, and 342 miles of copper cable that is deployed 
throughout the reservation. Starting in 1998, as I mentioned, 
the basic reason was to provide telephone services, but since 
that time GRTI has expanded into a variety of services--DSL 
Internet service, satellite TV service, Web page design, 
cellular phone sales, data cabling, and business phone systems.
    GRTI has also implemented several programs for our 
community members--first, the Fresh Start Program which allows 
customers with delinquent accounts to retain phone services; 
second, a customer incentive program which promotes responsible 
payment of phone bills; and third, an Enhanced Lifeline and 
LinkUp Program which allows qualified low-income residents to 
receive basic phone service. We are recommending that the 
criteria for this program be included for those on fixed 
incomes, such as the elderly. I think it is fair to say that 
GRTI continues to meet the demand of our unique tribal 
marketplace and the challenges that are present on a daily 
basis.
    As was previously mentioned, the evolution of GRTI has in 
part been a function of the growth of the community 
marketplace. Tribal economic development and housing has 
spurred the need for improvement in technology and 
telecommunications. We believe our marketplace will allow the 
business model to work. One of the biggest customers at this 
time is the tribal government. Over the past 5 years, the 
demands of equipping a growing tribal workforce of 
approximately 1,500 employees and approximately 83 departments 
and programs has presented significant challenges in two major 
areas--infrastructure and financial resources. The function of 
the investment in the community's technology effort has always 
been to meet basic infrastructure needs. While we have 
established basic connectivity to all of our seven district 
service centers, we are challenged by the sheer size of our 
reservation in developing systems that are effective, 
efficient, and reliable in all circumstances.
    Mr. Vice Chairman, in summing up, the community has several 
recommendations. For the most part, I believe all tribal 
governments and tribal corporations like GRTI support the 
inclusion of Federal programs that allow communities to 
consider more options in providing and building services. From 
the Department of Agriculture's Rural Utilities Services grants 
and loan programs to the National Telecommunications and 
Information Administration's Technology Opportunities Program, 
these initiatives, as a matter of policy, should continue to be 
funded. In addition, the committee should be aware of important 
issues pending before the FCC. We are recommending to the FCC 
that the e-rate discount program be continued. Also, Congress 
must continue the educational process of the unique 
jurisdictional and regulatory issues that exist in our 
communities. Finally, Mr. Chairman, it is my hope that the 
committee will continue to support tribal efforts in the area 
of technology and telecommunications.
    Thank you.
    [Prepared statement of Mr. Narcia appears in appendix.]
    Senator Inouye. Governor, I can assure you that this 
committee will continue to do whatever it can to help you. We 
will urge the agencies to change their policy so that the 
programs that we cited will be continued--RUS plus TOP; that 
much, we can promise you.
    You have been saying you have not been consulted as often 
as you want by these agencies?
    Mr. Narcia. I think there is a need for that consultation 
at any level as far as--it goes back to the basic question that 
tribal communities need to be involved in whatever 
decisionmaking is done, or have a part in it.
    Senator Inouye. Do you think we should have laws enacted to 
require the FCC to consult with you before they designate 
certain communications carriers located within your service 
area?
    Mr. Narcia. I believe that it would be very appropriate to 
have that type of legislation in place.
    Senator Inouye. I thank you very much, and I know you have 
got a long trip to take, so thank you for your presence.
    Mr. Narcia. Thank you, Senator, and thank you for your 
support.
    Senator Inouye. May I know recognize Chairperson McDowell?

  STATEMENT OF NORA McDOWELL, CHAIRPERSON, FORT MOJAVE INDIAN 
                             TRIBE

    Ms. McDowell. Good morning, Vice Chairman Inouye, and 
Patricia and others that are here today, distinguished tribal 
leaders, and others that are here on behalf of 
telecommunications throughout the United States, on behalf of 
tribal governments.
    Before I begin, I just want to thank our creator for giving 
us this day and allowing us to safely be here today to 
represent the needs of tribal governments throughout not only 
our communities, but throughout the United States.
    On behalf of our tribe, the Fort Mojave Indian Tribe, I 
want to thank you today for having this hearing to address the 
status of telecommunications in Indian country. During the 
early 21st century as we look at needs throughout Indian 
country, telecommunications obviously is one of the highest 
technologies that is continuously evolving. Every 6 months 
there is a new telephone, you know--everybody has a different 
way and mechanism of communicating. Tribal governments have 
historically communicated using communication tools throughout 
their history and their culture. As most economic factors 
predicate today, high quality communications services are vital 
to our communities in Indian country, especially in rural 
areas.
    Without access to high quality services similar to those 
found in the urban areas and at comparable prices, most Indian 
youth and people sometimes have to make a heart-wrenching 
decision whether to stay and seek work off their ancestral 
lands and-or perhaps never realize their full potential because 
of the lack of capabilities that are there on reservations that 
currently exist not only in the telecommunication area, but all 
economic areas. There is location to be considered. We are 
fortunate with our tribe to have been located in an area that 
is diverse. We are located in three States--California, 
Arizona, and Nevada. Through the efforts or our tribe, when we 
look at establishing a telecommunications company back in 1988, 
actually in 1989, our tribe looked at how we could best 
accomplish and complete our true vision of ensuring tribal 
sovereignty and actually exercising tribal self-determination. 
In that, we looked at our communications. We look at our 
utilities on reservation. We also looked at the unmet needs of 
our tribal people, the future vision for our people. Most 
current location for our homesites were in California only. We 
expanded in 1972 into Arizona and established homes there, and 
it was virgin territory at that time. The company that had 
traditionally provided service there for 35 years was a company 
that was not able to provide service to us just because of 
remoteness of our location there at that time, and not being 
able to service that area. And every other mile of land on our 
reservation was checkerboarded in Arizona, which meant every 
other mile was tribal-nontribal, tribal-nontribal. As you have 
probably heard and have seen throughout other testimony from 
different tribes throughout the United States where the 
Railroad Act was implemented therein, so our reservation became 
checkerboarded.
    Prior to the formation of the Fort Mojave 
Telecommunications Inc., our penetration rate of telephone 
service on my reservation was about 35 percent. During the 
short life of Fort Mojave Telecommunications, it has increased 
the penetration rate to an astounding 98 percent, and currently 
provides 1,016 access lines throughout the reservations in 
California, Arizona, and Nevada. These significant gains of 
which my people are collectively proud are made even more 
noteworthy when you consider that the reservation is in three 
States, as I mentioned before, consisting of 48,000 acres. In 
Arizona, the difficulties mount, obviously, as you are aware of 
the checkerboarded situation.
    My tribe wanted its own telecommunications basically 
because in order to achieve total exercise of its tribal 
sovereignty and self-determination and because high-quality 
telecommunications services were vital. Prior to the formation 
of FMTI, the telephone network consisted solely of copper 
lines; not all parts of the reservation, especially the remote 
areas, had access to the network. The Fort Mojave 
Telecommunications has greatly improved the communication 
capability of the reservation as is evidenced by the vastly 
improved penetration rate. It no longer matters where you live. 
Before, we only had access to analog services. FMTI has 
upgraded the network to approximately 75 percent digital. To 
hit that mark, FMTI has laid over 45 miles of fiber optic cable 
to increase both the speed and quality of our communications 
system.
    It is really something to sit here today and recount the 
beginnings and resulting growth of FMTI. I can tell you about 
all the meetings to determine not whether we needed our own 
telephone company, for it was quite obvious that we did, but 
rather the path to that goal. I could relate to you some of the 
stories of some of our tribal members, especially in the areas 
that were remote at that time. Sometimes we would be without 
service for 3 to 5 days. So for us, for some people it was just 
imperative just to have dial tone, so for us the increase in 
the capacity that we have been able to achieve throughout our 
15 years of development of our company was something the 
remarkably that our tribal people totally appreciate.
    I also have to mention, though, the legal, jurisdictional 
and political opposition we faced from formation of our company 
from local service providers who had a monopoly of the area for 
over 35 years. My tribe certainly had help, obviously, from 
others such as the Gila River Telecommunications, Cheyenne 
River, who had gone before us, and from other rural telephone 
companies who had similar experience in dealing with providing 
service to rural areas. The establishment of FMTI has been of 
extraordinary value to my people, not simply because now we can 
call in when in the world, or we currently run our own 
Internet-based business, but for the shining example of the 
Fort Mojave Tribe's self-determination. All the world can now 
see how my people came together and cooperatively fulfilled a 
need, and in the end provided ourselves with what had 
previously been denied.
    Far from saying that the path is wrong, Fort Mojave 
Telecommunications must continue to grow and expand to meet the 
development needs of the community it serves. The Federal 
Government has also contributed to the success of FMTI. Key 
programs such as the Technology Opportunity Program, TOP, RUS 
grants and loans, and Federal universal service support have 
enhanced our ability to bring high quality advanced 
telecommunications service to my tribe. Unfortunately as we 
look forward to providing for the future needs of the tribe, we 
are concerned. In the early years of FMTI, the assistance 
received from RUS was really significant and important to our 
tribe.
    I know there are other funds that also RUS provides for 
electricity and other rural needs out there. In some areas we 
have been denied actually access to those Federal dollars 
because other providers in rural areas had already received 
grants and funds to provide service to our area, such as 
electricity. On my reservation, we had difficulty there, and 
hopefully those will be areas that will be looked at. Also, 
when you implement programs or grants to Indian reservations, 
because another rural company coming in without proper 
authority or jurisdiction over your tribal lands cannot claim 
your property or say they are going to provide service without 
consulting with that tribe. We had experienced that with our 
electricity company. Fortunately, we did not have to go through 
that with our telephone service, but it is something that is 
there that needs to be looked at in any program that is 
implemented or where funds are appropriated by Congress to be 
addressed in Indian country.
    We are fortunate that we did have that startup money, and 
currently not many financial institutions, as I am sure you 
have heard in past testimony from other tribes in looking at 
economic development. We are willing to sit down with tribes 
and financial markets throughout Indian country in dealing with 
tribes, and because of the trust status of lands and/or 
allotted lands, have created barriers to financing companies 
such as FMTI, and/or utility services, and/or any other 
services that are currently provided on our reservation.
    Therefore, the grants, loans and loan guarantees that we 
received from RUS helped to breathe life into FMTI, and 
continue to assist us in achieving our dream on our 
reservation. As much help as RUS has provided and continues to 
provide, there is room for improvement. With input from tribes 
such as at today's hearing, employees and customers, some 
programs can be better tailored to have greater impact on our 
reservations. The recent broadband loan program implemented 
last year provides low-interest loans and loan guarantees for 
broadband services. While most reservations would meet the 
requirements, some tribes seem unable to participate in this 
program, for instance because a community must first apply for 
resources from a fund from a specific State. This seems to 
disqualify reservations which, like mine, stretch over three 
States. While my tribe could apply to the national fund, this 
pool is only funded with money left over, if any, from the 
earlier States' process. A better approach would have been to 
carve out funds for entities seeking to provide broadband 
services on tribal lands.
    Today, I want to thank you, Mr. Vice Chairman, for your 
time and attention and thoughtful consideration of the issues I 
have presented here today. I ask that when you consider the 
provisioning of communications in Indian country, and 
especially your committee, you remember the inherent right of a 
governing body of a nation, which I know you promote and 
envision and continue to support tribal governments and the 
tribal sovereignty issues that we face daily, not only here in 
Congress, but in the States and the counties, and the tribal 
governments that we represent--that the tribes are best able to 
meet basic needs based on the distinctive cultural heritage. 
When a tribe is able to adequately fund and provide for these 
needs, not only does it strengthen the self-determination of 
our tribes as a whole, it also provides self- esteem and 
confidence for every tribal member. In the end, both nations, 
the tribe and America are stronger and connected for the 
future.
    Today, I thank you for hearing us and having me here today 
providing our comments on behalf of our tribe, and I am able to 
answer any questions that you may have. Thank you.
    [Prepared statement of Ms. McDowell appears in appendix.]
    Senator Inouye. Thank you very much, Chairperson McDowell. 
Your testimony has been filled with criticism and citing 
shortcomings of the Federal agencies and Federal laws. If you 
have any suggestions as to what can be done to improve, for 
example, the designation process of eligible telecommunication 
carriers, we would like to receive them from you.
    Ms. McDowell. Yes; I have suggested a number of items 
within my testimony, specifically to the FCC and others that 
have actually those authorities to designate what those would 
be. I think in Indian country, I think most of us, like my 
company, is very young. It is a young company that does not 
have the competitive edge. On reservations, it is a lot 
different providing services as a tribal government versus an 
individual entity or corporation or company. I am not saying we 
should be anti-competitive, but I am also saying that we should 
be looking at the needs of the communities that we are 
providing service to. Some reservations I am also advocating 
for do not have those services. So we need to look at those 
issues. I would suggest that we also look at providing 
legislation where there would be a set-aside for tribal 
governments of any sort, whatever size, that decides to take on 
the responsibility of providing services on its reservation. 
There needs to be money carved out in all of the communication 
areas throughout the Federal Government process that provides 
that service. But I think the tribes need to be consulted.
    We have had different groups and entities that have come 
together that have addressed those issues. They bring you all 
together to talk about telecommunication needs, but they do not 
give you any answers or funds or a mechanism to go to actually 
start that and develop it. A lot of that takes feasibility 
studies. It takes analysis. It takes all these technology-based 
performance results to achieve those goals for your tribe. It 
may not be in the best interests of you as a tribal government 
to take that responsibility on, but at the same time you should 
be afforded that opportunity to decide that, based on the needs 
of your tribal governments. So I would wholeheartedly ask the 
Senate and Congress to consider a set-aside for tribal 
governments for development of technology, much like the energy 
bill that is before you currently, to address the unmet needs 
of providing basic electric service needs on reservations. The 
moneys appropriated for that may not be a whole lot, but it is 
a beginning, and it is something that tribes that want to enter 
into that new technology can achieve and have resources 
available to develop their communities.
    Senator Inouye. We will do our best.
    Ms. McDowell. Thank you.
    Senator Inouye. And now may I call upon Madonna Peltier 
Yawakie, the president of the Turtle Island Communications.

STATEMENT OF MADONNA PELTIER YAWAKIE, PRESIDENT, TURTLE ISLAND 
                      COMMUNICATIONS, INC.

    Ms. Yawakie. Good morning, Mr. Vice Chairman and staff 
members.
    Charles Murphy, chairman of the Standing Rock Sioux Tribe 
was unable to present testimony at today's hearing due to a 
scheduling conflict. My name is Madonna Peltier Yawakie. I am 
the president of Turtle Island Communications, which is a 100-
percent Native American-owned telecommunication engineering 
firm providing consulting services to the Standing Rock Sioux 
Tribe. I have been asked to testify today on behalf of Chairman 
Murphy.
    The tribe welcomes the opportunity to inform this committee 
of the obstacles that are faced by the tribe in its efforts to 
improve telecommunications services on the reservation. Census 
2000 figures place the average penetration or average 
percentage of occupied Indian households with telephone service 
on the reservation at 69 percent. In stark contrast, non-Indian 
occupied households on the reservation enjoy a 96-percent 
telephone penetration rate. These figures represent an entire 
class of people on the reservation who are denied access to 
emergency medical and police services, educational and economic 
opportunities, and the ability to communicate with their 
government. These basic human needs strike at the heart of 
commitments made by the United States in the Fort Laramie 
Treaty of 1868. Ironically, it was Federal law that enabled 
current telecommunications service providers on the reservation 
the ability to deploy telecommunication infrastructure in a 
discriminatory manner.
    The tribal council is attempting to correct this serious 
threat to our communities, but we may need the help of Federal 
legislation. For a period of time, the non-Indian population 
exceeded the Indian population on the reservation. However, the 
2000 census reveals the vast majority on our reservation are 
now American Indian. The devastation of the allotment policy 
allowed for non-Indian acquisition of reservation lands. When 
these non-Indians needed phones, the BIA generously granted 
right-of-ways to tribal land areas to telephone companies. 
These telephone systems are financed with Federal resources 
and-or subsidies, and were establish with complete disregard 
for the tribe or its members.
    There is inadequate 9-1-1 service provided on the 
reservation. Emergency calls are routed in such a way that they 
are long distance calls for many of our tribal members. Those 
tribal members that meet Lifeline eligibility requirements to 
obtain telephone service are also required to submit a monetary 
deposit to the local telecommunication company or have toll-
blocking applied to their telephone service. When a tribal 
member is unable to make a deposit for long distance telephone 
service and due to lack of extended area service between our 
tribal districts, many of our community members are unable to 
place calls to the government and service centers. As an 
alternative, the tribe offered toll-free access to its members 
to address this problem, but it became too costly to sustain.
    Wireless services are typically considered an alternative 
where wire length services do not exist. However, cell phone 
service is effectively nonexistent on the reservation. There 
are only two cell towers located within the exterior boundaries 
of the reservation, which encompasses 2.6 million acres. One of 
these towers is located adjacent to the home of and on the 
property of a board member of one of the telephone 
cooperatives. Both cell towers are located in areas that limit 
service quality and reception. In 2001, the council decided to 
take corrective action and hired an engineering firm to 
complete a feasibility study and an attorney to draft the 
regulatory quote. The feasibility study included 
telecommunications service improvement options and the 
financing and funding options available for tribal 
telecommunication development. Telecommunication wireline 
infrastructure and wireless license holders were documented 
that serve all communities within the exterior boundaries of 
the reservation. Telecommunication right-of-way easements were 
obtained from the BIA to review their locations and terms of 
these existing agreements.
    Telecommunication network design options were developed, 
along with their associated costs that would best meet the 
long-term service needs and economic objectives of the tribe. 
Financial statements were completed for this project to 
demonstrate the economic impact of service improvements and 
employment opportunities within the tribal land area. A draft 
utilities service code was developed and distributed for 
comments to the FCC, the North Dakota Public Service 
Commission, the South Dakota Public Utility Commission [PUC] 
and the four LECs providing service on the reservation. The 
North Dakota Public Service Commission held an informal hearing 
and offered written comments on the code. To the contrary, the 
South Dakota PUC did not respond to our request for comments. 
Similarly, West River Telecom, the principal carrier on the 
reservation, did not provide its comments until after the 
comment period. Basically, their only comments were that the 
tribe lacks jurisdiction to regulate them. West River 
Cooperative Telephone Company also offered comments to contest 
the tribe's jurisdiction. The LECs have been communicating with 
State regulators about our draft code, but not with the tribe. 
The draft code was revised to address the comments we did 
receive, and we are again soliciting comments on the revised 
version, which are due later this month.
    According to the FCC report released recently on telephone 
subscribership on American Indian reservations and off-
reservation trust lands, the State of South Dakota ranks 27th 
and North Dakota ranks 24th in telephone subscriber rates when 
comparing rates with 33 States where American Indian tribes 
reside. Though Congress clarified in the 1996 
Telecommunications Act that tribes do have jurisdiction in this 
area, the lack of specific guidance in the act has left the FCC 
with only recent Supreme Court rulings for direction. More 
legislation is needed that supports tribal authority to 
regulate and improve wire-line and wireless telecommunication 
service levels on tribal land. For instance, the FCC has 
resorted to the Supreme Court's ruling that applies the test 
developed in the United States v. Montana, to decide whether a 
tribe can assert its jurisdiction over non-Indians on the 
reservation. The result, which has been applied only in the 
wireless context, is that tribes have been held to have 
jurisdiction only over carriers to the extent they are 
providing service to Indians on the reservation, and the States 
have been held to have jurisdiction over carriers providing 
service to non-Indians.
    While that jurisdictional arrangement may be somewhat 
workable, yet awkward, in a wireless context, it becomes even 
more challenging in a wireline context. It creates checkerboard 
jurisdiction that is subject to change with the transfer of 
land ownership or with the voluntary submission to tribal 
jurisdiction. Nevertheless, that is the jurisdictional scheme 
we are forced to establish in order to address the lack of 
service and poor quality service on the reservations. The FCC 
has fallen prey to loose language of the recent Supreme Court 
decisions that suggest tribes have jurisdiction only over 
members of the tribe. Despite Congress' effort to correct that 
problem with the Duro-Fix legislation, any correction in the 
telecommunication legislation may need to again, at the very 
least, clarify that tribes have jurisdiction over all Indians 
on their reservation, and that States should not be allowed to 
assert jurisdiction just to collect taxes.
    As carriers of last resort, telecommunication providers 
operating on Indian reservations are required to serve Indian 
people. Without direction from Congress, we expect that the 
lack of clarity will only make our efforts more challenging to 
improve services on the reservation. Regardless of these 
obstacles, the Lakota and Dakota people of the Standing Rock 
Sioux Tribe deserve the benefits of a modern society and we 
will not allow jurisdictional opposition to defeat our efforts.
    Again, we thank you for the opportunity to testify on this 
very important issue.
    [Prepared statement of Charles Murphy presented by Ms. 
Yawakie appears in appendix.]
    Senator Inouye. You have come up with a very basic concern 
of Indian country--who has jurisdiction over what. I have noted 
your suggesting that maybe we should revisit Duro.
    Ms. Yawakie. Yes.
    Senator Inouye. And to clarify the language so that it will 
be jurisdiction over everything in the reservation.
    Ms. Yawakie. That would be wonderful.
    Senator Inouye. We will at the earliest time consider 
having appropriate hearings here to see if we can work out 
something.
    Ms. Yawakie. Thank you.
    Senator Inouye. Because according to your testimony, the 
problems you are having, some of the high technology that can 
be made available may be denied your people. So we will do our 
best.
    Ms. Yawakie. Thank you very much.
    Senator Inouye. We appreciate your testimony, and we will 
be submitting questions if we may. Thank you.
    Incidentally, I am going to be presiding until we finish, 
so if you are getting hungry, I think you should have lunch now 
or wait until later. It might be good for you to fast a little. 
[Laughter.]
    Our next panel is the president of the Turtle Mountain 
Community College, Dr. Gerald ``Carty'' Monette; Director of 
Technology, Affiliated Tribes of Northwest Indians, Seattle, 
Elsun Lauesen, accompanied by Valerie Fast-Horse, the Cochair 
of Telecommunications and Utility Committee, Affiliated Tribes 
of Northwest Indians, Portland, OR, and Director of Management 
Information Systems, Coeur d'Alene Tribe of Idaho; and Denis 
Turner, executive director, Southern California Tribal 
Chairmen's Association of Tribal Digital Village, California.
    I was advised that Mr. Turner has to leave right away, so 
Mr. Turner.

    STATEMENT OF DENIS TURNER, EXECUTIVE DIRECTOR, SOUTHERN 
   CALIFORNIA TRIBAL CHAIRMEN'S ASSOCIATION, TRIBAL DIGITAL 
                            VILLAGE

    Mr. Turner. Thank you, Senator. My name is Denis Turner. I 
am the executive director of the Southern California Tribal 
Digital Village.
    The 19 tribal governments in Southern California recently 
obtained a grant and made a partnership with the Hewlett-
Packard Foundation to develop a wireless communication system 
within the 19 reservation areas. We believe it is a solution 
for self-sufficiency for strengthening our sovereignties within 
Indian country. In doing so, I am providing for the record a 
written testimony of 5 pages. Hopefully, you have received 
that, Senator.
    Senator Inouye. It will be made part of the record.
    Mr. Turner. Thank you.
    I would just like to briefly tell you, though, that if you 
look beyond the pages that we have provided and that I have 
mentioned, we have developed a vision of what we think our 
solution is. We encourage other tribes to look at our model and 
consider our vision, because we believe it fits Indian country. 
It leaves no one behind. It brings everybody up to speed in 
developing their independent, individual tribal communities, 
systems connectivity to the bigger Worldwide Web, to developing 
their own community Internet, as well as an intertribal 
community Internet, as well call our IntraNet.
    So I think that this can only be done with using, as we 
have in our model, the universities, certainly the tribal 
colleges that we have used, and engineering and developing the 
architecture of our first-generation of our wireless system. I 
think that is constantly and always will be changing as the 
technology and the inventions and solutions come about in the 
future. I think that is something that all tribes need to keep 
abreast of and build their depth into.
    I want to just kind of briefly tell you about some of the 
real things that are more tangible that have happened since we 
have developed our model. I think that we have seen and other 
tribes will see in Indian country that by setting up our system 
ourselves, by building our towers, teaching our people to build 
the towers for broadband wireless, developing shadow projects 
through TANF people or other programs within the community for 
social services, to understand the value of the wireless 
broadband system, and having academies with the young people 
and showing them the maintenance, the development, to the final 
product, is something that really needs to happen. If you just 
build labs and expect our young people to learn 
telecommunication and what broadband wireless is, then you are 
leaving that other important part out.
    And how we learn this is that we have a charter school on 
our reservation. I am a member of the Rincon Band, and over the 
past years we have had a problem of attendance at our charter 
school. We have 200-and-some kids at a high school on the 
reservation, but since the development of our program, Tribal 
Digital Village, the attendance by the Superintendent of 
Schools in California cited us, and the State addressed for the 
Superintendent of Schools, that our charter school since we 
developed our lab and our Tribal Digital Village had a 99-
percent attendance rate. That is very tangible. It shows that 
our kids are learning the system that all Indian kids 
throughout Indian country need to learn. This is very valuable. 
So on a page of our report, we kind of give you an outline and 
a graph of what it is that Tribal Digital Village is doing in 
terms of resources for Indian students.
    I think that the issue that we face, though, is developing 
sustainability for our systems, because they are forever 
changing. That is just the nature of wireless and the nature of 
the IT business, as we have been taught. We were kind of guided 
by some defense contractors in the architecture of our system 
for wireless. They were able to teach us that the 
sustainability of it can only come, though, that if there is an 
economic structure that holds it up. We are working on that, 
but we have found out that even through that system, there are, 
as has been earlier said, the e-rate discount system in which 
tribes can build their systems and become self-sustaining. That 
is our goal. It is part of our vision. Unfortunately, I left 
behind our vision chart. I will supply that, along with a video 
that we would like you to see and your committee members to 
see, Senator, concerning our project in more detail.
    We were able to develop a video so that we can share it 
with the tribes throughout the country on how we developed our 
wireless broadband system. We do believe it is the solution, 
not because that is--under H-P, they say invent solutions. This 
truly is a solution that we ourselves are inventing for Indian 
country, and would all like to invite all tribal leadership and 
all Senators on your committee for visiting us and seeing what 
our model looks like. We truly believe that it can help 
everybody.
    You asked the question earlier, our children, our students 
and our elders have adopted and do want to be part of the 
Worldwide Web and communications system and support those 
efforts. Just in closing, I would like to thank you, as a 
veteran and other veterans, and our Native American veterans, 
for providing us for the freedom we have, and a safe place to 
be able to communicate on this earth.
    Thank you, Senator.
    [Prepared statement of Mr. Turner appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Turner.
    When did you establish your digital center?
    Mr. Turner. We obtained a grant in the year 2000, February 
2000. We established a steering committee, a backbone committee 
composed of everybody from the University down to people who 
were on public assistance.
    Senator Inouye. Do you have this model already established?
    Mr. Turner. Yes, sir.
    Senator Inouye. And where did the participants receive 
training?
    Mr. Turner. I am sorry, sir?
    Senator Inouye. Where did they get their training?
    Mr. Turner. We developed some training for our students, 
for our adults, parents, through classes, through training 
through the University.
    Senator Inouye. You had an arrangement with the University?
    Mr. Turner. Yes; with the University of California. That is 
where we feed our wireless from, although we are moving from 
dot.com to dot.org to dot.gov. In doing so, we have to get off 
their nonprofit status because we are going to economic 
development. In doing so, we have purchased another system in 
California for our wireless system so that we can maintain our 
own wireless phones, our own wireless communication. I really 
believe it is something that is a solution for tribes in very 
other isolated areas.
    Senator Inouye. How much did it cost?
    Mr. Turner. The costs in the last two years have been close 
to $10 million for the last 24 months.
    Senator Inouye. Where did you get the funding?
    Mr. Turner. One-half of those funds came from the Hewlett-
Packard Foundation, in the amount of $5 million a year. The 
other one-quarter of it came from our tribes. They have some 
new businesses in Southern California and were able to supplant 
the Foundation grant, which was not a requirement, but they 
were able to provide that. And then the Indian people that were 
interested in it provided the other one-quarter, through 
various companies that are on the reservations, just providing 
that. One of the greatest things they have done is that every 
high school student we are having, and you are welcome, too, 
Senator, on May 29th, high school graduation for 120 Indian 
high school students in San Diego County, by which they have 
committed to provide every high school graduate student a 
laptop computer that is wireless.
    Senator Inouye. Congratulations.
    Mr. Turner. Thank you, sir.
    Senator Inouye. I thank you very much, Mr. Turner.
    Mr. Turner. Thank you, Senator. It is always an honor to be 
before you.
    Senator Inouye. Now, may I call upon Dr. Monette.

   STATEMENT OF GERALD ``CARTY'' MONETTE, PRESIDENT, TURTLE 
                   MOUNTAIN COMMUNITY COLLEGE

    Mr. Monette. Vice Chairman Inouye, on behalf of the 
Nation's 34 tribal colleges, which comprise the American Indian 
Higher Education Consortium, I thank you for extending us this 
opportunity to testify today.
    I am honored to be here. I, too, am a veteran, not a combat 
veteran, but a veteran during the Vietnam War. I see you on 
television and I read about you in the newspaper, and I get the 
opportunity now to say thank you for what you have given to 
this country and our people. You are a great supporter of 
Indian people, as are all members of this committee. The two 
Senators from our State, Senator Kent Conrad and Senator Byron 
Dorgan are also tremendous champions for Indian people and 
tribal colleges.
    My name is Carty Monette. I am president of Turtle Mountain 
Community College, located in North Dakota. We are one of the 
first of five tribal colleges in the country, and this year we 
are celebrating our 30th year of existence.
    In my summary statement, I will cover three areas. First, I 
will briefly talk about a strategy that the tribal colleges 
have already used to plan for and to bring new opportunities to 
our people. Second, I will talk about the new tribal college 
wireless Internet backbone project. And third, I will provide a 
few recommendations for the committee's consideration.
    Senator Inouye and Senator Conrad, it is neither necessary 
for me to provide an assessment of the state of 
telecommunications in Indian country, nor to review the history 
of the tribal college movement. The two of you and others on 
this committee probably know best the history of tribal 
colleges and the struggles that we faced. I will simply say 
this: American Indian tribal colleges are young, geographically 
isolated and poor. The reservation-based tribal colleges are 
the poorest institutions of higher education in this country.
    About 10 years ago, our tribal colleges began to learn 
about the Internet and the awesome power that information and 
communication technology has in bridging the boundaries of 
geography and time. By that time, technology had already become 
a fundamental component of teaching, learning and research in 
higher education. Tribal colleges and universities, because of 
our poverty and isolation, had the most to gain or to lose from 
this evolution.
    But the new technological revolution was largely passing us 
by, just as it bypassed most of Indian country. We were faced 
with two choices: Either we could view our communities' lack of 
access to technology as a digital divide that most of us would 
never cross, or we could view technology as a digital 
opportunity. As tribal colleges, we chose the latter. In late 
1999, we began a series of steps that would lead to the 
creation of a dynamic and broad-based strategic plan to guide 
our effort to join the technology revolution. Our goal was to 
reach a circle of prosperity, a place where tribal traditions 
and new technologies are woven together to build stronger and 
more sustainable communities. We call our plan the Tribal 
College Framework for Community Technology. It is a framework 
of strategic partnerships, resources and tools that is helping 
us to create locally based economic and social opportunities 
through information and communication technology and use of the 
Internet.
    We developed the plan in five phases, and information all 
of these are included in the testimony that I have submitted. I 
hope that the committee members have a chance to review that 
testimony. We used a methodology called a Prosperity Game--a 
highly interactive, fast-paced and effective strategic planning 
simulation developed by Sandia National Laboratory from 
strategic war games. The game is designed to help create and 
sustain productive change through strategy development and 
negotiation. After much planning, we convened a 2\1/2\ day 
Prosperity Game, led by a team of 13 trained facilitators. 
Participants interacted in and across 11 sector teams to 
identify challenges and develop policy options and strategies 
for the coordinated TCU Framework for Community Technology. We 
included governments, including tribal governments, education, 
private sector, information technology providers, research and 
development, and public. Within weeks of the Prosperity Game, 
we had a series of other meetings to finalize development of a 
strategic plan. The result by January 2001 was the first tribal 
college framework for community technology.
    In February 2001, the AHEC Board of Directors adopted a 
strategic technology plan that embodied the TCU framework 
community technology. With support from the National Science 
Foundation, NASA, Microsoft Corporation and others, AHEC 
established a national coordinating office and launched a 
series of activities representing the initial phase of the 
framework. Most important to individual tribal colleges was 
bringing the framework full circle--back to each tribal college 
through assistance with community-based information technology 
planning. In addition, AHEC has undertaken a series of regional 
IT planning sessions to ensure that the framework and all 
activities that flow from it are responsive to the specific and 
evolving needs of tribal colleges. We have learned that 
planning on this level is a never-ending process. It is a 
circle of continuous improvement through locally and nationally 
based assessment planning, implementation and evaluation that 
is continually repeated.
    I refer you to my testimony for more details on our process 
and outcomes. In the interest of time, I will only mention two 
outcomes of this ongoing process. First, everyone of the 34 
tribal colleges, despite our remoteness, isolation and poverty, 
has achieved broadband Internet connectivity for our campuses, 
most through multiple T-1 lines. We have computer labs and we 
are developing robust and growing distance education programs. 
This is a significant change from only a few years ago, when 
some colleges had only one computer with dial-up Internet 
access. Second, an example of our efforts over the past few 
years is AHEC's Wireless Backbone Project. To provide high-
speed connectivity to remote institutions and our satellite 
campuses, where laying fiber optic cable may never be cost-
effective, Turtle Mountain Community College and two other 
tribal colleges are piloting state-of-the-art wide-band 
wireless backbone technology. We are setting distance records 
in the process.
    Last year, Turtle Mountain Community College, established a 
point-to-point wireless infrastructure ring around our 
reservation, running from our college site in Belcourt, North 
Dakota to several locations in other parts of the reservation. 
In addition, we established a point-to-multipoint access point 
at the local radio station tower, which provides line of sight 
access for a 10-mile radius. The system uses commercially 
available and cutting edge technologies and unlicensed 
spectrum. It is providing TMCC and some of our local K-12 
schools, tribal governments, tribal courts, other tribal 
offices with excellent broadband connectivity, significant cost 
saving over the traditional services, and the ability to 
deliver broadband multimedia capacity and applications that are 
not currently available to most rural and tribal communities.
    Implementing this pilot system was challenging. We had to 
educate our local community and the tribal government on the 
initiative and win their support. We had to obtain local 
permission to mount and install the wireless transmission 
equipment at the necessary locations. Finally, we had to 
establish a working agreement with the local public utilities. 
Without these relationships in place, our initiative would have 
failed. I am pleased to report, however, that the system has 
been in place and performing well for several months now. It is 
cost-effective, easy to maintain, adequate for our needs, and 
has pushed wireless technology to a level never before attained 
in the terms of first-mile access.
    I would like to close with a few recommendations. I 
respectfully request that the committee support our existing 
tribal college programs, and urge you to ensure that funding is 
available for comprehensive community-based strategic IT 
planning for tribal colleges and tribal communities. Currently, 
as we have heard today, little money is available, and what is 
available is disappearing rapidly. We urge the committee during 
reauthorization of the Higher Education Act and the Carl 
Perkins Act to consider establishing specific technology-
related programs for tribal colleges. Likewise, as national 
security and cyber-infrastructure programs are developed, we 
urge you to ensure that tribal colleges are included in any 
legislative initiatives.
    In closing, Senator Inouye and Senator Conrad, I am 
grateful for this opportunity to present our thoughts and 
recommendations to the committee. The Nation's tribal colleges 
and universities are committed to working with the Congress, 
Federal agencies and the private sector to build a bridge of 
technological opportunities across our vast Nation. Thank you 
very much.
    [Prepared statement of Mr. Monette appears appendix.]
    Senator Inouye. I thank you very much.
    May I recognize the gentleman from North Dakota, Senator 
Conrad.
    Senator Conrad. Thank you very much, Mr. Chairman. I 
appreciate your courtesy, as always.
    Welcome, Dr. Monette. It is excellent to have you. I was 
actually on your reservation this weekend. I was with the 
chairman and we were looking at some of the housing issues, as 
you know, that exist there. I regretted not having seen you, 
but we were dealing with other issues, so we missed having an 
opportunity to visit.
    I would be very interested in your prioritization of what 
needs to be done with respect to telecommunications. If you 
were to say in a couple of sentences what the priorities are--
what are the most important things that we could do that would 
improve telecommunications services in Indian country, what 
would they be?
    Mr. Monette. Senator, of course the broad answer is access. 
We have to strive to bring access to high-speed Internet to all 
tribal members. But from the tribal college president's point 
of view, I look at the teaching and learning part of our need. 
Teaching and learning is enhanced tremendously when our young 
people and all of our people have access to technology in the 
learning process. Earlier there was a comment about education 
and about tribal colleges, but the role that we have at tribal 
colleges is multi-folded. We have to raise the level of 
knowledge of technology so that all tribal peoples recognize 
the need for technology. Then we have to bring that technology 
to the communities. On many of our reservations, particularly 
where the reservation-based tribal colleges are located, if it 
were not for our institutions, there would be no technology 
there. Our role is to bring access to technology, and then to 
teach people how to use that technology. So the greatest need, 
of course, is money. We need to sustain what we have, but we 
have to be allowed to grow that so that all people have access 
to technology.
    I hope I answered your question, sir.
    Senator Conrad. Excellent answer. Let me just say that I 
received a letter, and I would like to put this letter, Mr. 
Chairman, if I could in the record.
    Senator Inouye. Without objection.
    Senator Conrad. It is from Mick Grosz, the CEO and General 
Manager of West River Telecommunications Cooperative that is 
located in Hazen, ND. This does not serve your area. It serves 
the area of the Standing Rock Sioux Reservation. He goes into 
substantial detail on what West River Telecommunications 
Cooperative has done to be responsive to the needs in Indian 
country, and indicates that their number one goal is to provide 
quality, affordable service. To this end, they have taken a 
whole series of steps that are in the letter. At the same time, 
they have kept rates affordable. Local service rates average 
less than $12 a month. It goes into some detail as to the 
quality of services they provide on the reservation that are 
equivalent to the non-reservation areas, and that their level 
of penetration is very good. They indicate the Indian 
households' level of penetration is 69 percent. The FCC study 
on telecommunication subscribership on reservations gives 
almost an 80 percent penetration rate for all households on the 
Standing Rock Reservation; 69 percent for Indian households--
far higher than what is seen elsewhere in the country.
    He concludes by saying this, and he also goes into some 
detail of things they have done to broaden the area that you 
can make toll-free calls in response to requests from the 
reservation. He said that what they do not need is more 
regulations or mandates. He says, as a member-owned 
cooperative, West River is very sensitive and responsive to the 
needs of its member-owners. We do not need more regulations or 
mandates. The program is available; the cooperative spirit and 
the willingness to work together will ensure needed services 
will be available.
    Now, this is not your service area, but this is a very 
clear signal, at least from one member-owned cooperative, that 
the answer is not more regulations or mandates. Would you have 
a reaction to that?
    Mr. Monette. First of all, I think it would be nice if the 
other cooperatives talked to this gentleman, and I am sure they 
do. His target, I believe--he is facing a challenge because it 
sounds as though his cooperative that he leads, their heart is 
in the right place. They want to do the right thing. But even 
the numbers that you just read are far short of where they 
ought to be. There needs to be a way where the cooperatives can 
survive and grow and show profit and serve their members, so 
their members get a return on their investment and good quality 
service in the process, but also pushing them toward raising 
those numbers for Indian people. I think the letter that you 
just read, Senator, and the gentleman that wrote it to you, is 
on the right road. But I think there may be need for more 
regulations to nudge them forward a little bit, so that they 
raise those numbers for all Indian peoples in all areas of the 
country.
    Senator Conrad. I might add in fairness to Mr. Grosz, he 
indicates that the numbers that I cited were estimates from a 
2000 FCC estimate. On March 27 of this year, he provided my 
office a worksheet that showed the total number of lines that 
were actually being paid for at that time. According to that 
worksheet, the actual penetration rate is in excess of 90 
percent. So they have clearly done a very good job in that 
particular area of improving their services. So I would like to 
enter this letter into the record, and I thank the Chairman.
    Senator Inouye. Without objection, so ordered.
    [Referenced document follows:]

         West River Telecommunications Cooperative,
                                           Hazen, ND, May 19, 2003.

Hon. Kent Conrad,
U.S. Senate Washington, DC.

    Dear Senator Conrad: I am writing in response to the 
hearing on telecommunications services available for the Indian 
Tribes scheduled for May 22, 2003. I am the CEO/General Manager 
of West River Telecommunications Cooperative [WRT] 
headquartered in Hazen, ND. WRT provides service to the greater 
part of the Standing Rock Sioux Reservation, which is located 
in North and South Dakota.
    WRT strives to provide quality, affordable 
telecommunications to all people living within its service 
area. WRT is a member owned cooperative that is governed by an 
elected Board of Directors. Margins earned through member's 
patronage are allocated back to that member and returned to 
that member as capital credits are retired. As a non-profit 
company, our No. 1 goal is to provide quality, affordable 
service. To this end, WRT has constantly upgraded its 
technology to better serve its member owners. WRT has upgraded 
to all digital switches and fiber in the loop technology. Local 
number, dial-up Internet is available to every customer. DSL is 
available to over 80 percent of its customers both on and off 
the reservation. WRT has accomplished this and kept rates very 
affordable. Local service rates average less than $12 per 
month. The Dial-up Internet cost to the customer is $19.95 per 
month. The DSL, with Internet service included, cost to the 
customer is $39.95 per month.
    WRT has provided service to the reservation that is equal 
to or superior than that provided to off reservation exchanges. 
The exchanges located on the reservation were either the first, 
or among the first, in our system to have digital switches and 
fiber-in-the-loop technology installed. Local number, dial-up 
Internet was introduced on the reservation in the same 
timeframe as the other exchanges served by WRT. DSL is 
available to people living on the reservation in approximate 
proportion as it is to the rest of our membership. WRT has made 
quality, affordable telecommunications available to people 
living on the reservation. WRT created an expanded local 
calling area for three exchanges located on the reservation. 
This was done in response to the concerns of tribal members. 
With the expanded local calling area, many more tribal members 
could call agencies and businesses without incurring a toll 
charge.
    WRT has attained a subscription rate on the reservation 
that is very good. The FCC study on telecommunication 
subscribership on reservations released on May 5, 2003 gives a 
79.9 percent penetration rate for all households [1895 of 2372] 
on the Standing Rock reservation and a 68.9 percent penetration 
rate for Indian households [969 of 1406]. These 2000 FCC 
estimates are far higher than the 1990 FCC estimates of a 46.6 
percent penetration rate. But these are estimates. On March 27, 
2003 I provided your office a worksheet that showed the total 
number of lines that were being paid for at the time. According 
to that worksheet, the actual penetration rate is in excess of 
90 percent.
    WRT is working hard to improve the penetration rate on and 
off the reservation. WRT advertises the availability of the 
Lifeline and Link-up program that is available for low income 
consumers. We are very active in promoting the Enhanced 
Lifeline program that is available for people living on the 
reservation who qualify. WRT has promoted this program through 
its monthly newsletter. We have also advertised this through 
the radio and newspapers. WRT has made the appropriate agencies 
and authorities aware of this program. In addition, WRT has 
gone to the various towns and districts located on the 
reservation on 35 occasions to meet with residents of the 
reservation to promote the program and sign up qualifying 
people.
    I appreciate and share the concern the Senate Indian 
Affairs Committee has about the provision of telecommunication 
services to the various tribes. I feel strongly that we have 
met and continue to meet the needs of the people in our service 
area whether they live on or off the reservation. As a member-
owned cooperative, WRT is very sensitive and responsive to the 
needs of its member-owners. We do not need more regulations or 
mandates. The programs available, the cooperative spirit and a 
willingness to work together will insure that the needed 
services will be available to the members of the Standing Rock 
Sioux Tribe.
    I appreciate the opportunity to present this letter to you. 
Please feel free to share this letter with other members of the 
Committee. I would be willing to meet with you or any member of 
the Committee, at a time and place of your convenience, to 
discuss this issue. Should you desire, I would be available to 
present this information to the committee.

            Sincerely,
                                   Albert ``Mick'' Grosz, CEO/General 
                                       Manager.

    Senator Inouye. I was signaled by Ms. Yawakie that she 
wants to say something on this.
    Ms. Yawakie. My name is Madonna Peltier Yawakie. I 
appreciate Senator Conrad bringing that letter to light. I 
represent Standing Rock Sioux Tribe today. Chairman Charles 
Murphy was asked to testify today and he asked me to take his 
place. We have submitted testimony for the Standing Rock Sioux 
Tribe. I think what I would ask you to do is refer to that 
testimony. Right now, we are working with the tribes to begin 
to assert regulatory jurisdiction over West River 
Telecommunications and three other LECs. We are working, not 
actually with the South Dakota PUC, but we have submitted a 
utility code to them. They have not responded to the North 
Dakota Public Service Commission. They have responded, and 
right now they have that code for a second round and final 
round of response and comment. So what I would ask you is that 
we stay in touch with your staff, because this will be an 
ongoing effort. The Standing Rock Sioux Tribe is at 69 percent, 
but they have eight districts and that is an average rate, 
because some of their districts have 58 percent penetration 
rate. So while the numbers sound positive, there is a lot of 
work to be done in that area. I would remind you that West 
River Telecommunications has been serving that area since 1956. 
When we began our study, their penetration rate was at 52 
percent. Substantial money has been used through universal 
service funds to up those numbers. However, there is a lot of 
work to be done, and I wanted to bring that to light. We have 
met with your staff-person as well.
    Thank you.
    Senator Conrad. If I could just inquire, in the letter they 
say the 69 percent rate was an estimate done in 2000 by the 
FCC. They say that they have since provided my office a spread 
sheet that shows the actual penetration rate is now 90 percent.
    Ms. Yawakie. We actually have our statistics as well, and 
we would be happy to share those with your office. I think that 
the tribe, after having been--I am from North Dakota, as a 
matter of fact. I am from Turtle Mountain, Band of Chippewa, 
and I am a member there. The state of telecommunications at 
Standing Rock has been notorious. It has been notorious for 
years. There are things that are going on, that have gone on 
with some of the reservation. I think this is a complex issue. 
The tribe sits in two States. We have some specific detail that 
we would like to talk with you and your staff about at your 
convenience, and we look forward to that.
    Senator Conrad. Thank you very much.
    Ms. Yawakie. Thank you.
    Senator Inouye. Are you finished? Thank you, Senator.
    Dr. Monette, your opening remarks were rather painful, 
pointing out that the community colleges are the lowest-funded 
schools of higher education in the United States. I am well 
aware of that. As you may be aware, some of us have been 
working on a plan for many years now to establish in the United 
States a university--a university without walls for Indian 
country. The problem we have at this moment is, where do we 
locate that university, so that you can set up a medical 
school; a school of law; a school of social work--all of those 
specialties that community colleges do not have. Do you have 
any suggestions where we can go? We would like to have it in 
Indian country, not here.
    Mr. Monette. Senator Inouye, you are correct. I am well 
aware of the concept, and have mixed feelings about the 
concept. But overshadowing all those feelings and all those 
positions I may have is the recognition that we need to provide 
access to higher educational opportunities for all Indian 
people of all ages. So having said that, we need to find a way 
to do that. It is not reasonable, I believe, although it is 
preferable from my point of view to have a tribal college at 
each reservation. I believe it is not feasible to do that. So 
we need to look at ways to provide that access. We are well 
into the 2000's, and we still have too many Indian people who 
are not enjoying access to higher education.
    A couple of things--I think the current tribal colleges and 
those that are coming forward now provide a unique and 
excellent opportunity to deliver some of that access. I think 
technology provides the tool, the vehicle to do that. Even 
today, several of the tribal colleges are broadcasting courses 
over the Internet to places all over the world. Within States, 
several of the tribal colleges are using interactive video, 
multi-type approaches to technology used to bring teaching and 
learning to tribal peoples all over the world. So I think that 
is an important ingredient to this process--the use of 
technology. Because I think, and I feel that several of the 
tribal colleges are near that position. They are almost 
positioned to provide that service on a broad and grander 
scale.
    If we are talking about bricks and mortar and where that 
ought to be located, I think to have the research and the 
scholarship available to students in medicine and in law, you 
need to have a place where that ought to be. That is a tough 
question. I believe it ought to be in North Dakota, is where I 
believe it ought to be. [Laughter.]
    Senator Conrad. That is a very good idea. [Laughter.]
    Mr. Monette. I knew I would have support for that. I think 
the Upper Midwest, the Great Plains area, where a tremendous 
amount of Indian people are located, where a lot of history is 
located both for Native people and for America, and where the 
reservations are isolated--the poverty, the poorest counties in 
the country are located in the Upper Midwest. There is a 
tremendous need for education at all levels. I would like to 
see if it had to be bricks and mortar up in the Upper Plains 
area. But I think before we get to that point, we should assure 
appropriate funding for the existing institutions, which are 
tremendously underfunded. The reservation-based colleges like 
Turtle Mountain Community College are operating on an amount 
that is about half of what a similar mainstream institution 
would receive. So we are having to operate our programs on that 
small amount of money, plus also assist the students who for 
the most part are not academically prepared for college 
education, so they require a lot of attention. So a lot of our 
resources to into that effort, too.
    So I think multi-faceted answer here--the use of 
technology, the bringing up of the current funding level for 
the tribal colleges so they may continue to provide quality 
education, but looking at the need to provide access to all 
Indian people in a location I think would be right in the heart 
of what I call Indian country, and that is the high plains, 
Upper Midwest.
    Senator Inouye. Thank you very much, Dr. Monette.
    May I now call upon Valerie Fast-Horse of the 
Telecommunications and Utility Committee of the Affiliated 
Tribes?

 STATEMENT OF VALERIE FAST-HORSE, COCHAIR, TELECOMMUNICATIONS 
AND UTILITY COMMITTEE, AFFILIATED TRIBES OF NORTHWEST INDIANS, 
PORTLAND, OREGON, AND DIRECTOR, MANAGEMENT INFORMATION SYSTEMS, 
                  COEUR D'ALENE TRIBE OF IDAHO

    Ms. Fast-Horse. Good morning, Mr. Vice Chairman Inouye and 
Senator Conrad.
    My name is Valerie Fast-Horse. I am the Director of the MIS 
Department for the Coeur d'Alene Tribe. I serve as Cochair of 
the Telecommunications and Utilities Committee of the 
Affiliated Tribes of Northwest Indians. I would also like to 
insert that I, too, am a veteran of the U.S. Army and served in 
Desert Storm, and I have really been pleased to hear the 
testimony and the tributes to veterans this morning in this 
room.
    On behalf of the Affiliated Tribes, I am pleased to present 
testimony today regarding the work of ATNI and how we have been 
able to address the telecommunications needs of our member 
tribes. While our written testimony provides greater detail 
about ATNI and the challenges we face, in this morning's 
testimony I want to highlight some of the positive steps being 
taken to overcome these challenges.
    First, it is important to outline the framework from which 
we operate. When we speak to the issues of the digital divide, 
we see four divides and not one. The four divides are in the 
areas of transport, distribution, access and content. In order 
to begin to break these barriers, ATNI developed the Tribal 
Technologies Project. This project is a giant leap forward for 
many tribes. Most of our tribes do not have the resources, 
financial or human, to fully utilize and maintain the 
technology needed to succeed and prosper in the information 
age. The Tribal Technologies Project is designed to fill that 
gap by providing technical assistance to tribes through a 
structured planning process. The work is accomplished within 
the framework of formal invitations to ATNI EDC, conveyed 
through tribal council resolutions. These resolutions authorize 
the tribal technology team to work with local advisory boards 
and project staff, describes the tribal resources that are 
there to support the project activities, provides a time frame 
to complete the work, and specifies expected results from the 
assessments.
    Current initiatives being done within this framework in the 
Northwest, which we hope will serve as models for other ATNI 
tribes, includes the following. First, the Makah Tribal Portal 
Initiative. We see this initiative as a comprehensive solution 
that addresses both the content and the access issues in the 
Makah tribal community. The Makah Tribe is the most remote 
tribe of ATNI. It is located in Neah Bay in the Northwestern 
Olympic Peninsula in Washington. The concept is to create 
locally controlled content and to provide local services as a 
gateway to the Internet. The use of electronic documents and 
messaging boards among the households will be used to enhance 
tribal communications. The development and archiving of 
cultural content will enhance the use of cultural resources for 
the tribe. Local news, weather, sports and a local market 
trading area on the site will increase use and penetration of 
the technology in many tribal members homes. Because more 
households have TV's than PC's, the use of set-top devices for 
TV owners is being tested to increase access to the tribal 
portal. Another program that is being carried out by ATNI is 
the Tribal Telephone Outreach Program. This program was 
developed to address the access issue. It has two outreach 
advocates who provide training to tribes on telecommunication 
issues. This includes training on the Lifeline and LinkUp 
Programs for tribal lands and consumer rights issues. In 
addition, they have also impacted policy at the local, State 
and Federal levels. Through written and verbal testimony to the 
Public Utility Commission, they have contributed to the change 
of consumer laws in the State of Washington. These changes will 
make it easier for low-income families to reestablish phone 
service when old phone debt is an issue, and will protect the 
rights to privacy for all consumers.
    In addition to their outreach work, they also serve on the 
SEC Consumer Advisory Committee as well. We believe this 
program is an excellent model that could be replicated in other 
areas of Indian country. Although this program has helped 
hundreds of families, it is in serious jeopardy now due to lack 
of funding.
    Another initiative I would like to outline is the Tribal 
Teleport Initiative. This initiative addresses both 
distributive and transport issues. The Lower Elwha Tribe 
acquired property which contains a 300-foot microwave tower and 
facility. The facilities are part of the old Cold War Alaska 
Communication System. ATNI is cooperating with Lower Elwha and 
five other Olympic Peninsula tribes, including Makah, to 
convert the microwave facility into a teleport site. This site 
will link the tribes to an open access backbone, NoaNet, 
through a point of presence owned by the S'Klallam County PUD. 
There will be a fiber link from the S'Klallam County POP to the 
Lower Elwha tower. The circuit will then be transmitted to 
participating communities. The Makah Tribe and others will have 
a wireless point of presence built that will receive the signal 
and redistribute it to the end-users PC's and set-top devices. 
This will allow cost-effective access to be established. The 
tribes will operate as the content experts and the ISP for the 
system. Subscribers will pay for their connection at a 
wholesale rate, plus capital costs and transportation costs 
estimate to be around $25 per month for the equivalent of a 
fractional T-1 line.
    The last initiative I would like to outline is the Coeur 
d'Alene Tribe Broadband Initiative. This is a project that is 
designed to address the transport, distribution, access and 
content issues on the Coeur d'Alene Reservation. The tribe was 
recently awarded a $2.78 million community broadband grant from 
the USDA Rural Utilities Service. Through this grant, the tribe 
will build a state-of-the-art Tribal Community Technology 
Center and deploy a wireless broadband transmission system that 
will be adequate enough to support the tribal government, 
public safety personnel, medical facilities, educational 
institutes, new development and reservation communities. In 
addition to providing access to free broadband, the Technology 
Center will serve other purposes as well. We plan to use the 
center for the tribe's higher education, career renewal and 
workforce training needs. We have been collaborating with North 
Idaho College to bring instructor-led courses, online courses 
and interactive video conferencing courses to the Center. The 
Center will also be a focal point for e-government activities. 
We are currently developing a Web portal that integrates 
government and culturally relevant content together in order to 
attract users to the Center.
    These initiatives represent what ATNI hopes will be a 
locally empowering solution addressing all of the digital 
divides in Northwest Indian country. However, in order to 
continue along this positive path, ATNI also offers the 
following recommendations.
    No. 1, support open access backbones for rural America, 
such as the Northwest Open Access Network, NoaNet, throughout 
the United States. The presence of these backbones are similar 
to the public interstate highway system that links our great 
Nation together. A fair and equitable subscriber system could 
support the development of these systems and the interconnect 
costs to remote communities to be served by them.
    No. 2, support landing rights for World Trade Organization 
telecommunications satellite transponders for Indian country 
and other underserved rural areas. Intelsat, Telesat Canada, 
and other systems are capable of serving domestic U.S. markets. 
These systems could provide redundancy, links to peering 
services and signal repeating services for remote networks.
    No. 3, continue funding and supporting programs such as the 
Technologies Opportunities Program under the Department of 
Commerce, and the multiple programs supported through the Rural 
Utilities Service--projects such as the Teleport project and 
the Coeur d'Alene Tribe's broadband project simply would not 
exist without programs like these. RUS provides critical 
support for tribes. However, the corporate culture at RUS is 
driven by the utility power and telephone sector. While RUS 
does excellent work in rural America, there is a need for 
linking the operations of this corporate culture with the trust 
responsibility to Indian tribes. On that note, it is ATNI's 
position that there should be an Indian Desk at RUS.
    We also advocate support for the Economic Development 
Administration. EDA has been a dependable friend of rural 
America and Indian country throughout the years. EDA is a 
public partner in the assessment work currently being conducted 
by ATNI EDC. These programs provide important investment 
funding for public projects that help build the capacity of our 
Nations. However, we are finding out that much more work still 
needs to be done.
    No. 4, in particular we are requesting the support of this 
committee for a proposed congressionally sponsored 
appropriation specifically targeting the work of the Northwest 
Tribes, which is intended to support projects much like those 
described earlier throughout Northwest Indian country. This 
funding would dovetail the assessment and planning work being 
sponsored by private foundations in the Northwest over the next 
24 months.
    Finally, in relation to homeland security, we urge this 
committee to be mindful of the unique opportunity for Indian 
country to support the security of our Nation. Indian nations 
are often inholders within the vast tracts of wilderness and 
federally managed areas that are potentially vulnerable to 
infiltration by terrorists, smugglers, and other criminal 
agents. We are co-managers with Federal agencies in many areas, 
including fisheries, water resources and environmental 
management. Native Alaskans served on the technological front 
lines of America's Cold War, engineering and operating the 
district early warning sites along coastal Alaska. Native 
Americans have served this Nation with distinction when called 
upon to do so. In this context, the Cold War era microwave 
tower at Lower Elwha closes that loop of history in these 
challenging times. When this remnant of the Cold War is 
converted for peaceful uses of our tribes, it may yet perhaps 
be a service to the domestic security of our Nation. The Office 
of Homeland Security does recognize the government-to-
government relationship between the United States and federally 
recognized tribes. In this connection, we urge the committee to 
ensure that there will be a strong role for tribes as that 
office shapes its strategic thinking and the deployment of our 
Nation's security resources.
    Thank you for this opportunity to come before the committee 
and thank you for your diligence on behalf of the Northwest 
Tribes.
    [Prepared statement of Ms. Fast-Horse appears in appendix.]
    Senator Inouye. Thank you very much, Ms. Fast-Horse. In 
your closing remarks, you mentioned the Tribal Teleport 
Initiative. I believe you have an application with the Commerce 
Department's TOP program? I am certain you have heard that the 
Commerce Department and the President do not recommend funding 
for this program. Do you have any alternative sources for 
funding?
    Ms. Fast-Horse. I am sorry. I am not sure that--it seems to 
me like the only alternative sources we have in Indian country 
are the philanthropic efforts of private foundations, but that 
takes a lot of work in educating them in what the issues are to 
Indian country. I do not know. I am not sure what other----
    Senator Inouye. In other words, this committee must do 
something to overcome the President's proposal.
    Ms. Fast-Horse. Yes, sir.
    Senator Inouye. We will do our best.
    Ms. Fast-Horse. Thank you.
    Senator Inouye. Your statement has been extremely helpful. 
We will be sending you questions, if we may, on other 
specifics.
    Ms. Fast-Horse. Yes, sir.
    Senator Inouye. You are doing a good job there, and 
incidentally my first visit to a tribe as chairman of this 
committee was a visit to Makah.
    Ms. Fast-Horse. You are aware of the remoteness of the 
Makah Nation.
    Senator Inouye. It was not one of my most pleasant, 
because--[Laughter.]
    I was in an aircraft in a storm, and they have an air base 
about the size of this room. [Laughter.]
    But I landed. We left the Makah reservation by car. 
[Laughter.]
    Senator Inouye. It is safer that way.
    Do you have any questions?
    Senator Conrad. No additional questions, Mr. Chairman.
    I would like to just say a word of thanks to you for, first 
1, your holding this hearing, along with Chairman Campbell, and 
most of all your extraordinary patience and willingness to 
listen. It is deeply appreciated throughout Indian country.
    Senator Inouye. You are very kind. Thank you.
    Thank you very much, Dr. Monette. And now our next panel 
is: Cora Whiting-Hildebrand, member of the Oglala Sioux Tribal 
Council of Pine Ridge, SD; the vice president of Regulatory 
Affairs of the Western Wireless Corporation of Bellevue, 
Washington, Gene Dejordy.
    Ms. Whiting.

   STATEMENT OF CORA WHITING-HILDEBRAND, OGLALA SIOUX TRIBAL 
                         COUNCIL MEMBER

    Ms. Whiting-Hildebrand. Thank you, Mr. Chairman.
    My name is Cora Whiting-Hildebrand. I am a member of the 
Oglala Lakota Tribal Council. On behalf of President Yellow 
Bird Steele, the Oglala Lakota Tribal Council and the Oglala 
Lakota people that we serve, I appreciate the opportunity to 
appear before you today. We have a good story to tell here. I 
submitted testimony for the record and I will summarize.
    Reliable and affordable telephone service is essential for 
all Americans, including those Americans on the Pine Ridge 
Reservation. Eighteen months ago, only 30 percent of the homes 
on our reservation had telephones. This service was wireline 
and the provider did not make the reservation-based consumers 
aware of Lifeline or LinkUp assistance available to them. At 
$38 a month for basic services, with an average reservation 
household yearly income of $3,500, this meant 13 percent of the 
average household income was spent just to have a phone line. 
In other words, if a family in Toledo was making a household 
income of $40,000, by comparison they would be paying $433 a 
month for basic service. We are happy with Western Wireless and 
the competition. It is good to have LinkUp and Enhanced 
Lifeline universal service fund access. Ninety-nine percent of 
the Western Wireless subscribers on our reservation qualify.
    Next, Congress and the FCC must respect our sovereign 
authority. We know our need. We know our numbers. We know 
ourselves. We do not trust with good cause that our use of 
Lifeline and LinkUp assistance would have occurred without the 
competition created by Western Wireless Services. We would 
appreciate advice and assistance from the appropriate parties 
in educating ourselves about wise and responsible use of our 
regulatory, financial and service options.
    In conclusion, the Oglala Lakota people are happy with 
Western Wireless service. We know that without Western Wireless 
having eligible telecommunication carrier status, our mutually 
beneficial services would not have been possible. Before I 
finish, I want to give you an example of why the Oglala people 
are happy with Western Wireless. There are two sisters who live 
in my district, which is the Pejuta Haka District. They live 
about 20 miles out of town, right on the edge of the Badlands. 
They each have their own little one-bedroom houses. They have 
no electricity, no running water, and they use wood stoves to 
heat and cook. They have one old pick-up that they share. They 
use to haul wood and everything. They have never had a 
telephone in their whole lives. But now, they both have cell 
phones due to Western Wireless, and that keeps them connected 
to their doctors, to their family, to the tribal government, 
and it gives them 9-1-1 access if they ever happen to need it.
    With that, I would like to say thank you for allowing me 
this opportunity, and I will be happy to answer your questions 
if I can.
    [Prepared statement of Ms. Whiting-Hildebrand appears in 
apppendix.]
    Senator Inouye. Ms. Whiting, I thank you very much for your 
testimony. It has been extremely helpful.
    May I now recognize the gentleman from South Dakota, 
Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Senator Inouye. Unfortunately, 
I have been tied up with an Appropriations Committee hearing 
this morning. We are dealing with a lot of rural issues in that 
regard, so I had to excuse myself from here. But I did want to 
make a particular point of dropping by this morning to welcome 
Councilwoman Cora Whiting-Hildebrand to the Indian Affairs 
Committee. Cora is one of nine councilwoman, now one-half of 
the Oglala Sioux Tribe Council on the Pine Ridge, and providing 
extraordinary new leadership for the OST. I am just so very 
pleased that she could join us here to share insights that she 
has relative to telecommunications. Cora wears a lot of hats. 
She provides leadership in many different respects, but in this 
particular one I appreciate all that she does relative to 
telecommunications in our part of the country. Particularly in 
Indian country, telecommunications is not a luxury. It is not 
just a matter of economic opportunity. It is a matter of public 
safety. So it is so important that we have high quality, 
affordable, reliable telecommunications capabilities in Indian 
country. I have a very high regard for Councilwoman Whiting-
Hildebrand's experience, her insights on what has worked well 
and what has not worked well on the Pine Ridge, and I am 
grateful for her leadership. I just wanted to make a special 
personal welcome to her. I saw her the other day at a committee 
hearing as well, but I did want to stop into this hearing to 
express my thanks for her leadership on the telecommunications 
issues in particular.
    Thank you, Mr. Chairman.
    Senator Inouye. What can I say beyond that? Thank you very 
much.
    Mr. Dejordy, I do not think you need to testify. She has 
done it for you. [Laughter.]

STATEMENT OF GENE DEJORDY, VICE PRESIDENT, REGULATORY AFFAIRS, 
                  WESTERN WIRELESS CORPORATION

    Mr. Dejordy. No kidding. I do not know what else to say 
here. But Senator Inouye, Senator Johnson, I appreciate the 
opportunity to appear before the committee and further expand 
upon Cora's statements with respect to Pine Ridge.
    I think what is noteworthy is that Pine Ridge is an 
exciting and real-world story of how we can bridge the 
telephone divide as well as the digital divide in Indian 
country. What it represents is how a tribe and a private sector 
company can work together for the benefit of Native Americans, 
and how government can make a difference in the lives of tribal 
members on reservations, as well as the value of a competitive 
universal service system and how it translates into significant 
consumer benefits.
    Let me just briefly touch upon each one of those subjects. 
In terms of the tribal and private sector cooperation that took 
place here, it all started several years ago with a vision by 
the Oglala Lakota Tribe that they wanted to enhance their 
lives, they wanted a better telecommunications system. And 
together, Western Wireless and the Oglala Lakota Tribe worked 
to address those issues. We put aside any preconceived notions 
of how the system should work, how the arrangement should be 
structured. We sat down with each other and tried to work out 
what would be the best arrangement for both the tribe and for 
Western Wireless. In the end, that culminated in the Tate 
Woglaka service agreement, which we had a signing ceremony here 
several years ago before you, Senator Inouye.
    I think it is important to recognize that every tribe and 
their telecommunications needs are potentially unique and may 
require a different solution. There are tribally owned 
telephone companies that are doing a very good job; there are 
some telephone companies that are not from reservations and are 
serving reservations. And then there are some tribes like the 
Oglala Lakota Tribe who have developed a cooperative 
arrangement with Western Wireless, and that has served their 
needs well. The point, I think, is that the tribes should 
decide which approach best meets their needs and be able to 
count on the government and the private sector to assist them. 
That is what we tried to do in this arrangement here.
    Next, I would like to just touch upon how the Government 
can make a difference. The Pine Ridge story would not have been 
possible but for the FCC assuming jurisdiction in granting ETC 
status to Western Wireless for the purposes of universal 
service on the reservation itself. Universal service was the 
form of funding that was available to us to build out the 
network and the infrastructure on the reservation, which prior 
to us doing that there essentially was no wireless services on 
the reservation and very little wireline service.
    This raises, however, an important issue that needs to be 
resolved. Currently, the law is not entirely clear as to 
whether the FCC or the State commissions have jurisdiction over 
the designation of eligible carriers on reservations. In the 
Pine Ridge case, the FCC did a commendable job in resolving the 
jurisdictional issue in expeditiously granting ETC status 
within nine months. In our experience with being an ETC in 14 
States and on the Pine Ridge Reservation, that was the quickest 
process that unfolded in getting us into the market.
    However, the jurisdictional uncertainty in the regulatory 
process can and does create a barrier to competitive carriers 
seeking to obtain ETC status on reservations. Therefore, we 
would recommend that there be some clarity to the section 
214(e)(6) process that makes it clear that the FCC, in 
consultation with the tribes, has the authority and the 
jurisdiction to address ETC applications on reservations. What 
I would like to stress is that Western Wireless agrees that 
tribal support for an ETC application should continue to be a 
prerequisite to any carrier seeking to provide service on the 
reservations, whether that is a competitive carrier such as 
ourselves or the incumbent carrier. That is certainly what we 
did in this process before we even tried to obtain eligible 
status on the Pine Ridge Reservation. We worked with the tribe 
and obtained their full consent, as well as subjected ourselves 
to the jurisdiction of the tribe in terms of addressing 
service-related issues that may arise.
    The next point I would like to address is really the value 
of competitive universal service on Pine Ridge. The importance 
of this form of funding that is available to most tribal-owned 
telephone companies, as well as competitive carriers who want 
to serve reservations. It is really the mechanism that is in 
place for companies like Western Wireless to obtain the funding 
necessary to build out an infrastructure and serve the 
reservation. Prior to our entry into this agreement with the 
tribe, we had one antenna tower that partially served the 
reservation, and then after we entered into this agreement, we 
constructed three additional towers on the reservation and 
essentially have ubiquitous service throughout the reservation. 
Recently, it has come to our attention there are some areas of 
the reservation where there are gaps in coverage, and we are 
addressing that issue by constructing additional antenna 
facilities on the reservation.
    As Cora mentioned in her testimony, prior to our entry into 
the market, telephone penetration rates were about 32 percent. 
It took long-distance calling to call many communities from 
within the reservation, from one community to the another 
community on a reservation. The incumbent telephone company was 
not terribly responsive to the needs of the tribal members, as 
Cora mentioned. After Western Wireless entered into the market, 
the penetration rate has now increased to approximately 70 
percent, if not more. We have implemented local calling area 
for the entire reservation, as well as Rapid City. All of this 
was very much based on us sitting down with the tribe and 
identifying what their needs were and implementing a system 
that addressed their needs. I think oftentimes, a telephone 
company which could be competitive carriers, they may enter a 
reservation and may not necessarily consult the tribal 
government to determine what the reservation needs were. That 
is not what we did, and I think in the end the tribal citizens 
are better off for it. They have 9-1-1 service today. In fact, 
they have a more responsive incumbent telephone company. So it 
is not just us that providing our service on the reservation, 
but it is also true that the incumbent service provider that 
has gotten better at what it is doing.
    In sum, I would just like to stress that Pine Ridge is a 
success story. I think it can be duplicated with the right 
Government policies. I thank you for the opportunity to 
testify.
    [Prepared statement of Mr. Dejordy appears in appendix.]
    Senator Inouye. Thank you very much.
    In prior testimony by other witnesses, they noted that the 
designation process for ETCs may be very difficult, but you 
found yours to be rather expeditious and easy.
    Mr. Dejordy. Yes.
    Senator Inouye. To what do you account for the difference? 
The others were tribal organizations. Would you say they were 
lacking in experience?
    Mr. Dejordy. This is the FCC? Yes, that was a big issue 
when we first presented the application. The threshold question 
that the FCC has to answer is whether they have jurisdiction. 
There is a question in the FCC's mind as to whether they have 
jurisdiction over a carrier that would seek to be an ETC just 
on the reservation, not counting areas outside of the 
reservation. The FCC has developed a legal process that they 
would undergo to determine whether they have jurisdiction. It 
is not entirely clear what the outcome would be of that 
jurisdictional analysis. In the context of Pine Ridge, it 
worked out, but it was a very painful process that, to the 
FCC's credit they went through it incredibly quickly and did it 
at the same time that they granted our ETC application. But I 
do not anticipate that that is the normal course of events, so 
when I suggest that there is clarification to the 214(e)(6) 
process, I think that would solidify the FCCs jurisdiction and 
then they would not have to undergo an jurisdictional analysis 
to decide if they even want to hear the application.
    Senator Inouye. We will look at your recommendations and I 
think we can work out something.
    Senator Johnson.
    Senator Johnson. Just briefly, Councilwoman Whiting-
Hildebrand--I am not supposed to say Cora, I guess, here in a 
formal setting--but one of the facts of life across much of the 
most rural parts of South Dakota, as you well know, is that 
cell phone coverage, we have a lot of gaps in places where 
there just is not a signal. Do you feel pretty comfortable that 
we are making good progress in the Pine Ridge in filling in 
those gaps so we have a very continuous level of coverage no 
matter where you might be on the Pine Ridge?
    Ms. Whiting-Hildebrand. Yes; they work pretty much all over 
the reservation, and actually I have a cell phone with Cellular 
One out of Rapid City, and my husband has a cell phone through 
Western Wireless. His phone works in more areas than my phone 
will. The only place that neither of our phones will work is in 
Yellow Bear Canyon, and probably because it is in a canyon.
    Senator Johnson. Well, you get in a canyon, yes, you get 
into the Black Hills or into some of those canyons and you are 
going to have some trouble, no doubt. But you feel, 
particularly because of our concern about 9-1-1 signals and 
things like that, it is important that people can be sure that 
their signal can get across.
    That brings me to the other point. When we began to adopt 
9-1-1 through South Dakota through a lot of our rural areas, 
one of the first issues we had to deal with is an awful lot of 
people did not really have an address per se. As we went 
through voter registration and so on on the Pine Ridge last 
year, we discovered that was one of the hurdles we had to kind 
of get over because a lot of people had a box number, but not 
really an identifiable location number. How are we dealing with 
that on the Pine Ridge so that the 9-1-1 really works so we can 
get rescue help to people when they really need it?
    Ms. Whiting-Hildebrand. Well, our dispatchers and our 
emergency service people, the ambulance drivers and police 
officers, they have maps posted and they go by BIA highway 
numbers, and just basically landmarks of where people live. 
After an officer has worked in the district for awhile, they 
usually figure out where people live.
    Senator Johnson. There is nothing quite like using local 
people and people who are familiar with the communities to 
really make that work. I think that is interesting. I really 
commend the tribe for what it has done. I think that is a huge 
new enhancement of safety and quality of life for a lot of 
people to have that option in the event that they have got 
anything from a car accident to a heart attack that they can 
get immediate attention.
    I appreciate your observations as well that this is not 
just a matter of technology. It is also a matter of 
implementing technology in a way that honors the sovereignty of 
the tribe, and it is done in a very closely consultative 
manner. I wish that all the things the Government did was as 
consultative, but I applaud your work in that regard.
    With that, Mr. Chairman, that is all the questions that I 
have.
    Senator Inouye. Thank you very much. I would like to thank 
Cora Whiting-Hildebrand, and Mr. Dejordy--thank you very much.
    Ms. Whiting-Hildebrand. Thank you.
    Mr. Dejordy. Thank you very much.
    Senator Inouye. And now the final panel: the managing 
director and vice president of Privacy Council Inc. of 
Washington, Roanne Robinson Shaddox; the CEO and general 
counsel of the Montana Independent Telecommunications Systems, 
Mike Strand; the chief information officer of the Tohono 
O'Odham Nation--executive branch, Ben H. Standifer, Jr.
    Ms. Shaddox.

 STATEMENT OF ROANNE ROBINSON SHADDOX, SENIOR ADVISOR/EXTERNAL 
                   RELATIONS, PRIVACY COUNCIL

    Ms. Shaddox. Thank you, Mr. Vice Chairman Inouye and 
distinguished tribal leaders and guests.
    My name is Roanne Robinson Shaddox, and I am managing 
director and vice president of the Privacy Council, and the 
former chief of staff of the National Telecommunications and 
Information Administration. I am also a founding board member 
of the Native Networking Policy Center and a member of the Hopi 
Tribe of Arizona.
    Thank you for the opportunity to provide my personal 
observations on the important role of the Federal Government in 
addressing telecommunication needs in Indian country. During my 
6 years with NTIA, I primarily worked on efforts to close the 
digital divide. As the most senior Native American involved in 
telecommunications policy development for the Clinton 
administration, I tried to ensure that Indian country was 
included in these important efforts.
    At the outset, a key priority was educating Federal 
officials about the need in Indian country and bringing tribes 
and tribal organizations into the fast-moving 
telecommunications debate. Toward that end, we held the first 
of a series of public field hearings in Albuquerque, NM so that 
senior Commerce, NTIA and FCC officials could learn first-hand 
about the lack of service on tribal lands. For many people, 
they had never heard that tribes and Indian people did not have 
phone service, so it was very educational.
    We also successfully pushed for the appointment of a Native 
American to the first White House National Information 
Infrastructure Advisory Council that, too, held a hearing 
focused on Native issues. In addition, we worked to increase 
tribal access and awareness about the TOP program that you have 
heard a lot about today, and alerted the BIA officials about 
the new e-rate program which today is credited for connecting 
most BIA schools to the Internet.
    We also prominently highlighted Native issues at our major 
conferences on universal service, which further helped to bring 
the issue of the digital divide to the mainstream attention. 
Most notable, however, were our efforts to include data on the 
status of Native American household connectivity in our 
landmark Falling Through the Net reports. These reports 
received widespread national media attention, and with the 
President's call to action, helped to spur a wide range of 
public and private sector initiatives, including those by AOL, 
Microsoft and others, that helped to target the Indian 
communities' needs. I think these efforts also should be 
credited for helping to finally spur the FCC into action, which 
up to that point had not paid much attention to Indian issues.
    As a small agency, we had very few resources in which to do 
this. However, I mention these accomplishments because they 
demonstrate the powerful role that the Federal Government can 
play on issues of national importance. As tribes transition 
into the digital age, we need the Federal Government to 
continue to help in several important ways. Policy advocacy is 
one of those. With the rapidly changing telecommunications 
policy landscape, now more than ever tribes need an advocate 
within the Executive Branch to ensure that their voice is heard 
in major policy debates when possible ideas to create an office 
within NTIA or even to reestablish the Department of Commerce 
Indian Desk to monitor and advocate tribal interests on a wide 
range of policy issues, both inside and outside the agency.
    There are several such hot issues today, ongoing debates 
about universal service, broadband deployment, wireless and 
unlicensed wireless technologies, and the future of radio 
spectrum management. We also know that with the move to e-
government, issues such as privacy and security in the online 
environment are going to be very important to tribal 
communities.
    We also need more Federal coordination. I think that we all 
know that. This is needed to improve tribal investments or 
Federal investments on tribal land. These existing projects 
that occur today throughout all the Federal agencies with all 
these different programs need to be further examined, better 
coordinated, and we need further information about them so that 
this information can be widely shared to avoid other agencies; 
reinventing the wheel. For example, I recently heard that over 
at HHS the Public Health Service is making Internet access in 
their clinics a number one priority, and how is this type of 
initiative being rolled out and going to impact other projects 
that might be going on over at IHS?
    As you have heard overwhelmingly today, the Federal 
Government must continue to provide funds for tribal 
connectivity efforts. Programs such as TOP must be retained and 
fully funded to meet the strong demand not only from tribes, 
but from States, universities and other nonprofits. As we have 
heard today, TOP has played an important role in bringing these 
technologies to tribal communities, and can also play a very 
important role as these communities look to improve emergency 
communications in response to the war on terrorism.
    Also, as you have heard today, besides NTIA's TOP program, 
there is the PTFP program. There is also EDA's technical 
assistance and public works programs, and the Department of 
Education's CTC programs. I respectfully disagree with the Bush 
administration in thinking that these programs, specifically 
CTC and PTFP and TOP, have exceeded or met their mission. I 
think the need has been very well established today that these 
programs need to be retained and fully funded.
    I think these programs also become vitally important as we 
look at the FCC's June 2 vote on media concentration. The 
argument has been made that with the advent of the Internet and 
access to those technologies that why do we need to have 
diversity of media ownership. So I think if we are going to be 
in a world of further concentration, that having access to 
other alternative resources or sources for news and information 
on local events is very important for tribal communities.
    The guidelines and requirements for these programs should 
be periodically reviewed to make sure that they do not impede 
tribal participation, and timely reports very much need to be 
published on these projects, especially those that can serve as 
other models. We have also heard a lot about data collection. I 
cannot underscore the importance of the Federal Government 
engaging more and getting good baseline data for our 
communities. Only through good baseline data are we going to 
know how to best target policies and programs that can serve 
the needs on tribal lands. I believe that increased funding 
actually may be required for NTIA's next Nation Online survey 
to ensure that reservation households are adequately addressed 
in that data collection effort.
    I think finally what we have also heard a lot about today 
is that the FCC continues to need to build and strengthen their 
relationship with tribes and tribal organizations. Although 
tribes are on their way toward building a solid dialog with the 
FCC, we have many, many tribal communities that do not have the 
resources or expertise or the time to engage in formal 
Commission proceedings. My fear is that this could be 
misconstrued that tribes either are not interested or that they 
are not affected by all the issues that are before the FCC 
today. So the FCC should be encouraged to continue its dialog 
with tribes and find new ways to ensure that tribal views are 
heard and addressed at all levels, particularly on these tough 
jurisdictional issues.
    Moreover, the FCC should dedicate more resources to do 
effective consultation, enforce the universal service and 
build-out requirements of telecommunication providers that 
serve tribal lands, as well as to perform further outreach to 
Native American consumers about the Lifeline and LinkUp 
Programs, among other things. I also think the letter that 
Senators Daschle and Johnson and Baucus sent to the FCC 
recently asking them about these types of activities is very 
important in terms of seeing more oversight of these programs. 
They need to know that you are interested and that you care, 
and certainly this hearing today does that.
    In conclusion, the Federal Government must continue to play 
a strong role in support of tribal connectivity efforts. I urge 
the committee to take the steps necessary to protect and 
promote Federal programs and policies that best address the 
communication needs in Indian country. Only through your 
leadership will our communities soon enjoy true universal 
service and the wide range of benefits that come with today's 
technologies.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [Prepared statement of Ms. Shaddox appears in appendix.]
    Senator Inouye. Thank you very much, Ms. Shaddox. I was 
just reminded that on my visit to the Hopi Nation, I met your 
mother, Mrs. Robinson.
    Ms. Shaddox. Thank you. Thank you.
    Senator Inouye. You have had experience with NTIA. At the 
present time, do the Native Americans have any voice in the 
activities of NTIA?
    Ms. Shaddox. Unfortunately, I think very little today. I do 
not think it is a lack of interest as much as that it is a very 
small agency with very limited resources. Unless you have 
somebody there all the time basically nagging them about Indian 
issues, it is very easy to get caught up in some of the big 
debates that are being driven by much larger interests and 
lobbies. I think that is why, I know when I was there a lot of 
my work was just going and trying to educate--who are Indians, 
that they do exist, about the government-to-government 
relationship, and then educating them, trying to get good 
information to them about the status of access. I think 
everybody in this room who encounters folks at these agencies 
or working with the larger non-Indian community, you find most 
people today still do not know that there are a lot of folks 
that do not have a basic telephone in their households. So the 
education process has to be continuous. We tried to, and we did 
successfully get an Indian desk in the Office of the Secretary. 
That unfortunately no longer exists. I think as we have heard 
at other agencies, it takes someone in there working day to 
day, side by side with these professionals to keep Indian 
interests at the forefront.
    Senator Inouye. Does the White House have any Indian voice?
    Ms. Shaddox. Not to my knowledge. I believe there is 
somebody in that area responsible for Indian affairs. My guess 
it is in the intergovernmental affairs area of the White House, 
but I have not heard of any major outreach.
    Senator Inouye. Do you believe that the so-called 
consultation carried out by Federal agencies with Indian 
country meet the intent of the law?
    Ms. Shaddox. I am not sure exactly which law. I do not 
think it meets the intent of the full trust responsibility in 
government-to-government relationships. As we all know, 
consultation is an extraordinarily difficult process to do, 
particularly if you do not have any resources to conduct that. 
I think that is why a lot of agencies turn to organizations 
like NCAI, hopefully the National Tribal Telephone Alliance and 
others, to get the word out about programs and issues, and to 
get feedback. I think if you look at the BIA's consultation 
policy, it looks great on paper, but trying to execute that 
without significant resources to do so is difficult. Then, we 
are hindered by the fact that only until recently have all the 
tribes actually gotten fax machines. So if you want to alert 
them to information that they may have an interest in, we have 
gotten to that point. We need to get tribes and communities 
connected so it can be a seamless instantaneous communication 
process back and forth.
    Senator Inouye. Thank you very much, Ms. Shaddox.
    Mr. Strand.

 STATEMENT OF MIKE STRAND, CHIEF EXECUTIVE OFFICER AND GENERAL 
    COUNSEL, MONTANA INDEPENDENT TELECOMMUNICATIONS SYSTEMS

    Mr. Strand. Good afternoon, Vice Chairman Inouye. Thank you 
very much for having me. For the record, my name is Mike 
Strand. I am the CEO and General Counsel for Montana 
Independent Telecommunications Systems, that represents 
telephone cooperatives operating across Montana. I am also the 
CEO and General Counsel for an organization called iConnect 
Montana that builds neutral co-location facilities and data 
centers across Montana. I am a member of the Governor's blue 
ribbon Telecommunications Task Force, a long-time member of the 
9-1-1 Advisory Council and a founding board member of the 
Yellowstone Regional Internet Exchange, which provides the only 
Internet peering point in the Great Plains region.
    I would like to thank the committee for allowing me this 
time to offer my observations with respect to basic and 
advanced telecommunications services to Native Americans. I 
represent seven small telephone companies operating in Montana. 
They range in size from about 1,600 lines to about 10,000 
lines. Their service areas include all or part of five 
reservations--Fort Peck, Fort Belknap, Rocky Boy, Blackfeet, 
and Crow. These rural telephone companies are not tribally 
owned. However, several of them are cooperatives, so their 
subscribers on the reservation are owners of the cooperatives, 
along with the other cooperative members.
    While the policy of the companies I represent is to offer 
the same quality of service on reservations as we do off the 
reservations, it is nonetheless true that the reservation areas 
pose a number of unique challenges to our operations. First, 
our most current information is that the average per capita 
income on the reservations we serve is less than $10,000 per 
year, and unemployment is often greater than 30 percent. The 
Enhanced Lifeline Program that makes local service available 
for $1 per month helps the poorest get service, but most still 
have difficulty paying long distance charges or paying for more 
advanced telecommunication services like high-speed Internet 
access.
    Second, many residents, particularly among the elderly, 
speak primarily in their Native language and we cannot assume 
fluency in English. This creates certain challenges from a 
customer service standpoint. Third, there is often a pervasive 
mistrust of programs and projects offered on the reservation by 
non-Indians. Therefore, we have met some initial resistance 
even to programs like the Enhanced Lifeline Program I mentioned 
earlier. And then fourth, finally and perhaps most importantly, 
we acquired much of the reservation areas we serve from the 
local Bell company in 1994. When we acquired those areas, we 
found that the telecommunications facilities were antiquated, 
lacked adequate capacity to handle calling volumes, and had not 
been deployed to many homes or businesses. Therefore, 
subscribership among Native Americans in those areas was as low 
as 50 percent at the time we acquired them.
    Faced with these challenges, we were forced to come up with 
a number of different strategies to improve service and boost 
subscribership. I would like to outline some of these 
strategies for the committee because I think they are 
instructive for any company, tribal or otherwise, seeking to 
improve service in reservation areas. Then I would like to 
identify three areas in which we believe further improvements 
can be made.
    The example I will use is Project Telephone Company, which 
serves most of the Crow Indian Reservation in Southeast 
Montana. Project's experience is representative of the 
experiences of the other companies I represent. Our first 
challenge upon acquiring the Bell company's facilities on the 
Crow Reservation was to reengineer the physical 
telecommunications network so that it was not only capable of 
serving all of the residents, but also capable of providing the 
full range of basic and advanced telecommunications service. We 
found that the calling traffic capacity of the Bell company's 
old copper lines was exhausted in many areas, and that 
switching equipment was old analog equipment. There was no way 
for us to improve subscribership without installing new copper 
lines with greater capacity, as well as a certain amount of 
fiber optic cable to handle increased calling traffic. Further, 
there was no way for us to offer advanced services like high-
speed Internet access, voice mail, caller ID, call waiting, 
call forwarding, et cetera, without converting the antiquated 
switching equipment to digital equipment. This required an 
investment of over $2 million on top of the price we had to pay 
for the Bell company system.
    The reason I emphasize this point is that those companies, 
tribal or otherwise, must identify who they intend to serve, 
where those people are located, as they construct their 
networks and their capacity in order to adequately handle 
calling volumes. Further, they need to identify up front what 
kinds of services they intend to offer, so the correct 
technology platform is built that can deliver those services. 
We intended to offer not just voice services, but also high-
speed Internet and video conferencing services to the Crow, so 
we upgraded using wireline technology, fiber optic technology, 
coupled with digital switching.
    In addition to the Bell company's facilities being 
antiquated, they simply did not reach a large segment of the 
population. Our understanding was that the Bell company's 
construction policy required a substantial financial 
contribution from the individual customers before lines would 
be installed to their homes or businesses. We were told that 
many customers did not have service because they could not 
afford to pay the thousands of dollars the Bell company 
demanded in construction assistance before it would install 
phone lines to rural customers. To boost subscribership, we 
established a policy under which any customer that was within 
one mile of our lines could get service without construction 
charges. Nearly every resident of the reservation was within 
this distance, so construction charges pretty much became a 
non-issue. In order to address the language and suspicion 
barriers, we hired Crow-speaking customer service 
representatives and field technicians to do our hookups. We 
also appointed a tribal member to our board of directors to 
help determine tribal policy.
    While all of the measures I mentioned boosted overall 
subscribership, we found that we were seeing a significant 
number of reservation residents dropping service due to an 
inability to pay long distance charges. At the time we acquired 
the reservation areas, calls between the telephone exchanges on 
the reservation and between the reservation exchanges and the 
nearest large community were long distance charges. So for that 
reason, we petitioned the Montana Public Utility Commission to 
expand the local calling area so that all the exchanges on the 
reservation could call each other as local calls and not toll 
calls, and so they could also call the nearest large community 
as a local call without toll charges. Although that process was 
long, as regulatory processes often are, and it took us almost 
two years to accomplish this, we were successful, and now calls 
between all of the reservation communities and the largest city 
in Montana are local toll-free calls.
    As the 2000 census shows, all of these efforts enabled us 
to boost subscribership among the Crow from around 50 percent 
to 87 percent. Our subscribership has continued to grow since 
2000 due in no small part to the Enhanced Lifeline and LinkUp 
programs that make local service available to qualifying Native 
Americans for a dollar per month. We advertise the programs 
very aggressively on the Crow Reservation, and our customer 
service representatives contacted individual residents on a 
house-to-house basis to foster further awareness of the 
programs. Of the 1,400 residential lines on the Crow 
Reservation, 591 or 41.8 percent of the Crow residents are now 
on the Enhanced Lifeline Program. We believe that we are one of 
the most successful companies in the Nation in promoting the 
Enhanced Lifeline Program.
    In addition to the improvements to voice services, we also 
made dial-up Internet access available to all customers on the 
Crow Reservation. We have made high-speed Internet access using 
DSL technology available to two-thirds of the tribal members. 
Finally, we have installed fully interactive video conferencing 
studios in the tribal college and in the K through 12 schools, 
so students are able to share teaching resources with other 
schools across the country and across Montana.
    All in all, we believe we have made remarkable progress in 
making available basic and advanced telecommunications services 
to the Crow Reservation. However, there are still a few areas 
that remain troublesome. First, while we have been able to 
alleviate some of the problems with long distance charges by 
expanding the local calling area, many residents still find 
themselves with large long distance bills for calls made to 
areas outside that local calling area. When those bills become 
unaffordable, we find some residents simply disconnect their 
service. Second, while we have made broadband access available 
to the Crow Reservation, we have not yet seen great demand for 
those services. In part, we believe this is because of the 
economic conditions on the reservation, which simply prevents 
people from purchasing the service. We also believe that many 
residents of the reservation simply do not yet see why such 
access is relevant to their day-to-day lives. Our hope is that 
young people who use broadband services in the tribal college 
and K through 12 schools will over time create greater demand 
for similar services in the reservation's homes and businesses.
    Finally, there is a wrinkle in the FCC's rules regarding 
the distribution of universal service support for companies 
serving the reservations. Currently, if a competitor comes to 
the Crow Reservation and is designated as an ETC and are able 
to receive universal service, that competitor receives funding 
based not on their own costs of providing service, but on our 
costs. This creates a kind of catch-22 dilemma for us in so far 
as the more we invest in services on the Crow Reservation, the 
more funding becomes available to our competitors. For the 
first time, our board of directors and management have to think 
about how much investment we continue to make in the 
reservation when the cost of making those investments result in 
greater support to our competitors. This issue is of no doubt 
substantial concern not just to us, but to the tribally owned 
companies as well because they have the same exposure.
    As a final note, I would just like to take a few seconds 
and read the penetration numbers for the eight reservations in 
Montana: Blackfeet, 89.5 percent; Crow, 87.4 percent; Flathead, 
95.9 percent; Fort Belknap, 89.3 percent; Fort Peck, 92.3 
percent; Northern Cheyenne, 75.4 percent; Rocky Boy, 90.1 
percent; Turtle Mountain, the portion that is in Montana, 94.3 
percent. So we certainly appreciate the grave difficulties that 
many reservations are experiencing across the country, but we 
are shocked and dismayed at the 69 percent average and the much 
lower percentages we hear about, particularly in the desert 
Southwest. Clearly, those kinds of experiences are completely 
foreign to us in Montana, and we stand ready and willing to 
share our experiences and any advice we can give folks that are 
having a more difficult time getting penetration, and talk 
about our successes.
    Thank you.
    [Prepared statement of Mr. Strand appears in appendix.]
    Senator Inouye. With your background and experience, do you 
think your involvement in the south might make a difference--a 
company of similar background and experience?
    Mr. Strand. In the southern part of the United States, sir? 
Yes, I believe that we have made so much effort in boosting 
penetration on Indian reservations that I think that we could 
be of great value to companies in the southwestern part of the 
United States. Quite frankly, the cooperative model is a 
particularly good model for improving subscribership because it 
gives all of the subscribers--Native American and non-Native 
American alike--ownership in the company and a place in 
determining the policy. So I think that is a particularly good 
model.
    Senator Inouye. Thank you very much, Mr. Strand.
    And now may I call upon Mr. Standifer.

STATEMENT OF BEN H. STANDIFER, Jr., CHIEF INFORMATION OFFICER, 
            TOHONO O'ODHAM NATION--EXECUTIVE BRANCH

    Mr. Standifer. Thank you, Mr. Vice Chairman. I am honored 
to present this written testimony to the Senate Committee on 
Indian Affairs on behalf of my people of the Tohono O'odham 
Nation. I would also like to acknowledge our chief technology 
officer, who is with me today. I especially want to thank 
Senator Inouye for inviting us and allowing us to provide this 
written testimony on behalf of the Tohono O'odham Nation.
    The hearing being held here is to discuss the status of 
telecommunications in Indian country. Although I cannot speak 
on behalf of all Indian country, I do realize that Indian 
country is faced with many unique challenges and opportunities 
to improve the state of telecommunications on its lands. There 
are few tribes that have the opportunity to enmesh their 
infrastructure with urban areas, but there are many who are 
challenged by the rural remoteness of their lands. Indian 
country has been subjected to the over-popularized term digital 
divide, where a traditional understanding of the digital divide 
as a series of gaps and rates of physical access to computers 
and the Internet fail to capture the full picture of the 
divide--its stronghold, its educational, social, cultural and 
economic ramifications.
    Events such as September 11 have shifted focus from filling 
the divide to securing the divide. As priorities of the Nation 
change, Indian country is faced with dealing with changes never 
really quite conquering the divide. The Tohono O'odham Nation 
in its best effort in dealing with the divide is now faced with 
unique challenges to secure a 75-mile international border with 
Mexico--a challenge unique only to the Tohono O'odham Nation, 
and dealing with the after-effects of a ``more secure border''. 
As Chief Information Officer of the Tohono O'odham Nation's 
Department of Information and Technology, I can say that the 
status of telecommunication is inching forward, but there are 
unique opportunities for gaining access to funding, 
interoperability, cost of broadband services, technical 
assistance for some projects, and availability of a skilled 
information technology workforce.
    The Tohono O'odham Nation is fortunate to own and operate 
the Tohono O'odham Utility Authority, an enterprise that 
provides electrical, water, telephone, cellular, Internet and 
broadband service. This enterprise has been able to provide 
affordable phone service to over 3,500 homes and businesses on 
the reservation, and Internet service to 450 dial-up customers. 
Its current telecommunications service covers 75 percent of the 
Nation, and will expand to 95 percent over the next 5 years.
    The growth of these services are partly due to the National 
Exchange Carrier Association or NECA pool, but participation in 
this pool requires tariffs that regulate charges for 
telecommunications services. The charges regulated the tariffs 
have challenged the development of telecommunications solutions 
that include the use of broadband services. The Department of 
Information and Technology pays costs three to four times more 
than the average monthly costs of non-rural customers to 
provide high-speed Internet services. These monthly costs are 
neither economical or sustainable for the tribal government, 
the service departments, and programs. In a study conducted by 
NECA in 2002, titled the Middle Mile Broadband Cost Study, it 
focused on the costs of transporting Internet traffic from an 
Internet service provider operating in a rural telephone 
company territory like TOUA, to an Internet backbone provider--
this so-called middle mile.
    As I quote from the study, the study concludes that without 
support programs, high-speed Internet connections are not 
economical in many rural telephone company territories because 
serving areas are located a great distance from the Internet 
backbone provider. The study also demonstrates that revenue 
shortfalls do not just disappear as the market grows, but 
actually increases, because operating margins become more 
negative as customers need higher data speeds or when serving 
higher demand levels. This sobering conclusion suggests that 
high speed Internet service may not be sustainable in many 
rural areas. This is based simply on the economic costs of the 
telephone company broadband network upgrade and the need to 
route traffic over greater distances to reach the Internet 
backbone.
    This particular anomaly in costs has forced the Tohono 
O'odham Nation to leverage wireless solutions for connectivity 
opportunities, to reconsider its strategy in servicing programs 
such as departments and districts, but still challenges TOUA 
and the Tohono O'odham Nation to deliver broadband Internet 
access to all 4,600 miles of its reservation.
    The Tohono O'odham Nation, since forming the Department of 
Information and Technology, has been challenged with servicing 
a need that is greater than its resources. It has realized that 
effective tribal community-based planning was necessary to 
develop a strategic plan that would include the interests of 
all stakeholders, to include tribal governments, community 
college, human service, police department, cultural museums, 
nursing homes and other services. A winter IT summit was held 
in 2000 to provide a greet and meet opportunity for IT 
professionals who had an interest in the development of IT 
initiatives on the Tohono O'odham Nation. What proceeded were 
small cell meetings that resolved issues of connectivity, 
redundancy and availability. An initiative that the Tohono 
O'odham Nation created was standardization of hardware and 
software and key application where information could be shared 
across departments electronically, standards such as the 
Institute of Electrical and Electronics Engineers, IEEE, 
American National Standards Institute, ANSI, and the Design 
Criteria Standard for Electronic Records Management Software 
Applications, or DOD 5015.2, is providing framework for 
development. These standards will create better collaboration 
with entities that adopt similar standards while safeguarding 
their integrity. The Tohono O'odham Community College detailing 
our community-based planning process will provide a written 
testimony to this committee.
    For many years, access to Federal funding has been limited 
to tribal governments, mainly by the absence of acknowledgement 
of tribal governments and tribal entities eligibility for 
funding. Many Federal funding opportunities are written 
acknowledging State and local government eligibility, but 
exclude tribal governments and entities from participating 
through proposal submission. The addition of words, tribal 
government or tribal entities, should be included on all 
Federal funding opportunities. This language needs to be added 
to the Appropriations Committee or in a bill to include tribal 
governments and entities.
    In his opening statement to this committee in 1996, the 
Director of the Indian Health Services said:

    We must expand our search for partners in the health care 
arena. To become more efficient and effective, we have to look 
to foundations, universities, independent organizations and 
others who can assist us in the delivery of care.

    This CIO echoes this same sentiment for the future of 
technology and telecommunications for the Tohono O'odham 
Nation. We must become more effective and efficient and we must 
look to foundations, universities, corporations and Federal 
agencies that can assist in the further development of delivery 
of technology-based solutions. There is need for public-private 
sector partnership in providing the required infrastructure. 
Through more funding opportunities, economic and capital 
investments, research and developmental projects will allow the 
furtherance in the development of wireless infrastructure, 
health care and public safety initiatives that affect 
communities, visitors and Federal workers.
    An example of this model that continues to thrive today has 
been the collaborative efforts between the Tohono O'odham 
Nation and the Department of Homeland Security. The Tohono 
O'odham Nation shares a 75-mile international border with 
Mexico where undocumented workers become problematic, 
incursions from Mexican Federals; the presence of five Federal 
agencies, many of which fall under the Department of Homeland 
defense; the existing radio infrastructure inadequately covers 
70 percent of the large contiguous land mass; and the Tohono 
O'odham police and fire department lack the necessary 
interoperability with each other and their Federal 
counterparts.
    The Director of Wireless Communications of the Department 
of Homeland Defense met with the Tohono O'odham Nation and 
pledged his commitment and resources to develop an interim 
solution to create the interoperability between all public 
safety agencies, both tribal and Federal. His resources 
included telecommunications experts from the Secret Service, 
Border Patrol and Customs, engineers and security analysts to 
develop an interim solution that would create the much-needed 
interoperability.
    This example is what can happen when the Federal Government 
and tribal government commit to solve a problem with the 
motivation of better serving people and communities. This 
project delivered an interim interoperability solution within 
45 days and began a long-term commitment between the two 
governments.
    Finally, I close with the discussion regarding the need for 
technical assistance or the higher need of growing your own. 
The Department of Information and Technology has taken the 
position of providing quality services to the Tohono O'odham, 
but commits its resources to developing an IT workforce for its 
membership to support the IT interests today and in the future. 
In a complex and sometimes complicated field such as 
technology, the Tohono O'odham Nation believes that its members 
can provide these services, create a skilled IT workforce, and 
create a real solution that is best for the interests of the 
communities, districts and people of the Tohono O'odham Nation. 
The gap between the information rich and the information poor 
is being reduced by planned projects with the Tohono O'odham 
Nation and the community college to establish community 
information centers. These centers are to be equipped with 
multimedia PCs and relevant software to enable even those who 
are illiterate to use computers using icons and the mouse.
    The Department of Information and Technology has developed 
and outreach program titled Vital Link that provides mentoring 
and internships for junior and senior level high school 
students to experience a career in the field of technology. 
Students should be able to access the Internet in certain 
learning environments and use various technologies to display 
their knowledge. All students should learn to locate, acquire 
organize and evaluate information from a variety of sources, 
including electronic resources. Our goal is to influence the 
decision of our youth to complete high school and consider a 
career in technology. Other career programs that have been 
instituted internal to DOIT have been the Grow Your Own 
program, where technical and some professional staff who have 
minimally accomplished an associates degree or applicable 
experiences are put into a career ladder where they learn while 
developing their skill sets to provide the function of that 
position. These activities are just a few initiatives that are 
being used to create the required IT workforce necessary for 
sustaining the O'odham people.
    Consideration of mentoring programs for IT staff with 
Federal agencies who can provide additional support, skill 
sets, and encouragement for O'odham IT workers could be a good 
opportunity that will support the efforts of self-
determination, because it is not a hand out, but a hand up.
    I am privileged to provide this written testimony to the 
Senate committee, and hope that you will consider the 
challenges and opportunities that rest in Indian country, in 
particular with the Tohono O'odham Nation.
    Thank you.
    [Prepared statement of Mr. Standifer appears in appendix.]
    Senator Inouye. I thank you very much, Mr. Standifer. Your 
Department of Information Technology has made great progress in 
providing telecommunications services to your people. Do you 
have any outreach program to share this experience of yours 
with other tribes and nations in your vicinity?
    Mr. Standifer. Our outreach program is about two years old. 
We are actually graduating our first year students that came 
through our program, so it is still rather new.
    Senator Inouye. Are some from other nations?
    Mr. Standifer. I am sorry?
    Senator Inouye. From other nations?
    Mr. Standifer. No, sir; from the Tohono O'odham Nation. We 
have not yet provided that information to the other tribes, but 
are willing to do so.
    Senator Inouye. I think they would be most grateful if you 
shared your experience with them.
    Mr. Standifer. Thank you.
    Senator Inouye. I have been advised that there will be a 
working meeting for those who are interested in participating 
in room 836 of the Hart Senate Office Building at 2:30 this 
afternoon. It is 1 hour from now. We would like to invite all 
of the witnesses who participated this morning to be there. I 
think meeting together may be helpful mutually.
    With that, I thank all of you for your participation today. 
I know you are hungry, so get to lunch.
    Thank you very much.
    [Whereupon, at 1:27 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Mike Strand, Executive Vice President and General 
      Counsel MITS--Montana Independent Telecommunications Systems

    Good Morning. I would like to thank the committee for allowing me 
this time to offer my observations with respect to basic and advanced 
telecommunications services to Native Americans.
    I represent seven small rural telephone companies operating in 
Montana. They range in size from about 1,600 lines to about 10,000 
lines. Their service areas include all or part of five reservations: 
Fort Peck, Fort Belknap, Rocky Boy, Blackfeet, and Crow. These rural 
telephone cooperatives are not tribally owned, however several of them 
are cooperatives, so their subscribers on the reservation are owners of 
the cooperatives along with the other cooperative members.
    While the policy of all of the companies I represent is to offer 
the same quality of service on reservations as we do off the 
reservation, it is nonetheless true that reservation areas pose unique 
challenges to our operations:
    No. 1. Our most current information is that the average per capita 
income on the reservations we serve is less than $10,000 per year and 
unemployment is often greater than 30 percent. The enhanced Lifeline 
program that makes local service available for $1 per month helps the 
poorest get service, but most still have difficulty paying long 
distance charges or paying for more advanced telecommunications 
services like high-speed Internet access.
    No. 2. Many residents, particularly among the elderly, speak 
primarily in their native language, and we cannot assume fluency in 
English. This creates challenges from a customer support standpoint.
    No. 3. There is often a pervasive mistrust of programs and projects 
offered on the reservation by non-Indians. Therefore we have met some 
initial resistance even to programs like the enhanced Lifeline program 
I mentioned before.
    No. 4. Finally, and perhaps most importantly, we acquired much of 
the reservation areas we serve from the local Bell company in 1994. We 
found that the telecommunications facilities we acquired were 
antiquated, lacked adequate capacity to handle calling volumes, and had 
not been deployed to many homes or businesses. Therefore subscribership 
among Native Americans in such areas was as low as 50 percent.
    Faced with these challenges, we were forced to come up with a 
number of different strategies to improve service and boost 
subscribership. I would like to outline some of these strategies for 
the committee because I think they are instructive for any company 
seeking to improve service to reservation areas. Then I would like to 
identify three areas in which we believe further improvements could be 
made.
    The example I will use is Project Telephone Company, which serves 
most of the Crow Indian Reservation in Southeast Montana. Project's 
experience is representative of the experiences of the other companies 
I represent.
    No. 1. Our first challenge upon acquiring the Bell company's 
facilities on the Crow Reservation was to re-engineer the physical 
telecommunications network so that it was not only capable of serving 
all of the residents, but also capable of providing the full range of 
basic and advanced telecommunications service. We found that the 
calling traffic capacity of the Bell company's old copper lines was 
exhausted in many areas and that the switching equipment was old analog 
equipment.
    There was no way we could improve subscribership without installing 
new copper lines with greater capacity as well as certain amount of 
fiber optic cable to handle increased calling traffic. Further, there 
was no way to offer more advanced services like high-speed Internet 
access, voice mail, caller ID, call waiting, call forwarding, etc. 
without converting the antiquated switching equipment to digital 
equipment. This required an investment of over $2 million on top of the 
price we had paid for the Bell company's system.
    The reason I emphasize this point is that those companies, tribal 
or otherwise, must identify who they intend to serve and where those 
people are located as they construct their network in order to ensure 
that the network has both the proper geographic coverage and adequate 
capacity to handle calling volumes. Further, they need to identify what 
kinds of services they intend to offer so that the correct technology 
platform is built that can deliver those services. We intended to offer 
not just voice services but also high-speed Internet and 
videoconferencing services to the Crow, so we upgraded using wireline 
technology coupled with digital switching.
    No. 2. In addition to the Bell Company's facilities being 
antiquated, they simply did not reach a large segment of the 
population. Our understanding was that the Bell company's construction 
policy required a substantial financial contribution from the customer 
before lines would be installed. We were told that many customers did 
not have service because they could not afford to pay the thousands of 
dollars it demanded in construction assistance before it would install 
phone service to rural customers. To boost subscribership, we 
established a policy under which any customer that was within one mile 
of one of our lines could get service without construction charges. 
Nearly every resident of the reservation was within this distance, so 
construction charges pretty much became a non-issue.
    No. 4. In order to address the language and suspicion barriers, we 
hired Crow-speaking customer service representatives and field 
technicians to do hook-ups. We also appointed a tribal member to our 
Board of Directors.
    No. 5. While all of the measures I have mentioned boosted overall 
subscribership, we found that we were seeing a significant number of 
reservation residents were dropping service due to an inability to pay 
their long distance charges. At that time calls between the telephone 
exchanges on the reservation were long distance calls and so were calls 
to the largest nearby city, Billings, MT. For this reason, we 
petitioned the state public utility commission for permission to 
establish a local calling area that included all of the reservation 
exchanges as well as the Billings exchange. Although the regulatory 
process took us nearly 2 years, we were ultimately successful and now 
calls between reservation communities and Billings are local, toll-free 
calls.
    As the 2000 census shows, all of these efforts enabled us to boost 
subscribership among the Crow from around 50 percent to 84 percent. Our 
subscribership has continued to grow since 2000, due in no small part 
to the enhanced Lifeline and Link-Up programs that make local service 
available to qualifying Native Americans for $1 per month.
    We advertised the programs very aggressively on the Crow 
Reservation and our customer service representatives even contacted 
individual residents to further foster awareness. Of the 1,413 
residential lines on the Crow Reservation, 591 or 41.8 percent are now 
on the enhanced Lifeline program.
    In addition to the improvements to voice services, we also made 
dial-up Internet access available to all customers. We have made high-
speed Internet access using DSL technology available to nearly two-
thirds of the tribal members. Finally, we have installed 
videoconferencing studios in the tribal college and K-12 schools so 
students are able to share teaching resources with other schools across 
the country.
    All in all, we believe remarkable progress has been made regarding 
the availability of basic and advanced telecommunications services on 
the Crow Reservation. However, there are still a few areas that remain 
troublesome.
    No. 1. While we have been able to alleviate some of the problems 
with long distance charges by expanding the local calling area, many 
residents still find themselves with large long distance bills for 
calls made to areas outside the local calling area. When those bills 
become unaffordable, we find some residents simply disconnecting their 
service.
    No. 2. While we have made broadband access available to the Crow 
Reservation, we have not seen great demand yet for such services. In 
part, we believe this is because economic conditions on the reservation 
simply prevent people from purchasing the service. We also believe that 
many residents of the reservation simply do not yet see why such access 
is relevant to their day-to-day lives. Our hope is that young people 
who use broadband services in the tribal schools will over time create 
demand for similar services in the reservation's homes and businesses.
    No. 3. Finally, there is a ``wrinkle'' in the FCC's rules regarding 
the distribution of universal service support to companies serving the 
reservation. Currently, if a competitor comes to the Crow reservation 
and is designated as being eligible to receive universal service 
funding, that competitor receives funding based on the costs we incur 
to provide service and not on the competitor's own costs. This creates 
a kind of ``catch 22'' dilemma for us insofar as the more we invest on 
the Crow reservation, the more funding that would be available to our 
competitors. For the first time, our Board of Directors and management 
have to think about more than just how we can improve service when 
considering further investment on the reservation because such 
investment may actually harm our competitive position. This issue is no 
doubt of substantial concern to the tribally owned companies as well 
because they have the same exposure. The FCC is currently reviewing 
these rules.
    Thank you very much for allowing me this time to share our 
experiences and to discuss some continuing challenges. I would be happy 
to answer questions at the appropriate time.
[GRAPHIC] [TIFF OMITTED] 87495.001

[GRAPHIC] [TIFF OMITTED] 87495.002

[GRAPHIC] [TIFF OMITTED] 87495.003

[GRAPHIC] [TIFF OMITTED] 87495.004

[GRAPHIC] [TIFF OMITTED] 87495.005

[GRAPHIC] [TIFF OMITTED] 87495.006

[GRAPHIC] [TIFF OMITTED] 87495.007

[GRAPHIC] [TIFF OMITTED] 87495.008

[GRAPHIC] [TIFF OMITTED] 87495.009

[GRAPHIC] [TIFF OMITTED] 87495.010

[GRAPHIC] [TIFF OMITTED] 87495.011

[GRAPHIC] [TIFF OMITTED] 87495.012

[GRAPHIC] [TIFF OMITTED] 87495.013

[GRAPHIC] [TIFF OMITTED] 87495.014

[GRAPHIC] [TIFF OMITTED] 87495.015

[GRAPHIC] [TIFF OMITTED] 87495.016

[GRAPHIC] [TIFF OMITTED] 87495.017

[GRAPHIC] [TIFF OMITTED] 87495.018

[GRAPHIC] [TIFF OMITTED] 87495.019

[GRAPHIC] [TIFF OMITTED] 87495.020

[GRAPHIC] [TIFF OMITTED] 87495.021

[GRAPHIC] [TIFF OMITTED] 87495.022

[GRAPHIC] [TIFF OMITTED] 87495.023

[GRAPHIC] [TIFF OMITTED] 87495.024

[GRAPHIC] [TIFF OMITTED] 87495.025

[GRAPHIC] [TIFF OMITTED] 87495.026

[GRAPHIC] [TIFF OMITTED] 87495.027

[GRAPHIC] [TIFF OMITTED] 87495.028

[GRAPHIC] [TIFF OMITTED] 87495.029

[GRAPHIC] [TIFF OMITTED] 87495.030

[GRAPHIC] [TIFF OMITTED] 87495.031

[GRAPHIC] [TIFF OMITTED] 87495.032

[GRAPHIC] [TIFF OMITTED] 87495.033

[GRAPHIC] [TIFF OMITTED] 87495.034

[GRAPHIC] [TIFF OMITTED] 87495.035

[GRAPHIC] [TIFF OMITTED] 87495.036

[GRAPHIC] [TIFF OMITTED] 87495.037

[GRAPHIC] [TIFF OMITTED] 87495.038

[GRAPHIC] [TIFF OMITTED] 87495.039

[GRAPHIC] [TIFF OMITTED] 87495.040

[GRAPHIC] [TIFF OMITTED] 87495.041

[GRAPHIC] [TIFF OMITTED] 87495.042

[GRAPHIC] [TIFF OMITTED] 87495.043

[GRAPHIC] [TIFF OMITTED] 87495.044

[GRAPHIC] [TIFF OMITTED] 87495.045

[GRAPHIC] [TIFF OMITTED] 87495.046

[GRAPHIC] [TIFF OMITTED] 87495.047

[GRAPHIC] [TIFF OMITTED] 87495.048

[GRAPHIC] [TIFF OMITTED] 87495.049

[GRAPHIC] [TIFF OMITTED] 87495.050

[GRAPHIC] [TIFF OMITTED] 87495.051

[GRAPHIC] [TIFF OMITTED] 87495.052

[GRAPHIC] [TIFF OMITTED] 87495.053

[GRAPHIC] [TIFF OMITTED] 87495.054

[GRAPHIC] [TIFF OMITTED] 87495.055

[GRAPHIC] [TIFF OMITTED] 87495.056

[GRAPHIC] [TIFF OMITTED] 87495.057

[GRAPHIC] [TIFF OMITTED] 87495.058

[GRAPHIC] [TIFF OMITTED] 87495.059

[GRAPHIC] [TIFF OMITTED] 87495.060

[GRAPHIC] [TIFF OMITTED] 87495.061

[GRAPHIC] [TIFF OMITTED] 87495.062

[GRAPHIC] [TIFF OMITTED] 87495.063

[GRAPHIC] [TIFF OMITTED] 87495.064

[GRAPHIC] [TIFF OMITTED] 87495.065

[GRAPHIC] [TIFF OMITTED] 87495.066

[GRAPHIC] [TIFF OMITTED] 87495.067

[GRAPHIC] [TIFF OMITTED] 87495.068

[GRAPHIC] [TIFF OMITTED] 87495.069

[GRAPHIC] [TIFF OMITTED] 87495.070

[GRAPHIC] [TIFF OMITTED] 87495.071

[GRAPHIC] [TIFF OMITTED] 87495.072

[GRAPHIC] [TIFF OMITTED] 87495.073

[GRAPHIC] [TIFF OMITTED] 87495.074

[GRAPHIC] [TIFF OMITTED] 87495.075

[GRAPHIC] [TIFF OMITTED] 87495.076

[GRAPHIC] [TIFF OMITTED] 87495.077

[GRAPHIC] [TIFF OMITTED] 87495.078

[GRAPHIC] [TIFF OMITTED] 87495.079

[GRAPHIC] [TIFF OMITTED] 87495.080

[GRAPHIC] [TIFF OMITTED] 87495.081

[GRAPHIC] [TIFF OMITTED] 87495.082

[GRAPHIC] [TIFF OMITTED] 87495.083

[GRAPHIC] [TIFF OMITTED] 87495.084

[GRAPHIC] [TIFF OMITTED] 87495.085

[GRAPHIC] [TIFF OMITTED] 87495.086

[GRAPHIC] [TIFF OMITTED] 87495.087

[GRAPHIC] [TIFF OMITTED] 87495.088

[GRAPHIC] [TIFF OMITTED] 87495.089

[GRAPHIC] [TIFF OMITTED] 87495.090

[GRAPHIC] [TIFF OMITTED] 87495.091

[GRAPHIC] [TIFF OMITTED] 87495.092

[GRAPHIC] [TIFF OMITTED] 87495.093

[GRAPHIC] [TIFF OMITTED] 87495.094

[GRAPHIC] [TIFF OMITTED] 87495.095

[GRAPHIC] [TIFF OMITTED] 87495.096

[GRAPHIC] [TIFF OMITTED] 87495.097

[GRAPHIC] [TIFF OMITTED] 87495.098

[GRAPHIC] [TIFF OMITTED] 87495.099

[GRAPHIC] [TIFF OMITTED] 87495.100

[GRAPHIC] [TIFF OMITTED] 87495.101

[GRAPHIC] [TIFF OMITTED] 87495.102

[GRAPHIC] [TIFF OMITTED] 87495.103

[GRAPHIC] [TIFF OMITTED] 87495.104

[GRAPHIC] [TIFF OMITTED] 87495.105

[GRAPHIC] [TIFF OMITTED] 87495.106

[GRAPHIC] [TIFF OMITTED] 87495.107

[GRAPHIC] [TIFF OMITTED] 87495.108

[GRAPHIC] [TIFF OMITTED] 87495.109

[GRAPHIC] [TIFF OMITTED] 87495.110

[GRAPHIC] [TIFF OMITTED] 87495.111

[GRAPHIC] [TIFF OMITTED] 87495.112

[GRAPHIC] [TIFF OMITTED] 87495.113

[GRAPHIC] [TIFF OMITTED] 87495.114

[GRAPHIC] [TIFF OMITTED] 87495.115

[GRAPHIC] [TIFF OMITTED] 87495.116

[GRAPHIC] [TIFF OMITTED] 87495.117

[GRAPHIC] [TIFF OMITTED] 87495.118

[GRAPHIC] [TIFF OMITTED] 87495.119

[GRAPHIC] [TIFF OMITTED] 87495.120

[GRAPHIC] [TIFF OMITTED] 87495.121

[GRAPHIC] [TIFF OMITTED] 87495.122

[GRAPHIC] [TIFF OMITTED] 87495.123

[GRAPHIC] [TIFF OMITTED] 87495.124

[GRAPHIC] [TIFF OMITTED] 87495.125

[GRAPHIC] [TIFF OMITTED] 87495.126

                               <greek-d>

</pre></body></html>
